APPENDIX

TABLE OF CONTENTS
Appendix A

Court of Appeals Opinion,
April 22, 2021........................... 1a

Appendix B

District Court Order
Dismissing Complaint,
November 15, 2019 ................ 11a

Appendix C

Texas Court of Criminal
Appeals Opinion,
April 12, 2017......................... 36a

Appendix D

Email from Senior Judge
Shaver to Texas Court of
Criminal Appeals,
September 23, 2016 ............... 76a

Appendix E

District Court of Bastrop
County, Texas, Findings of Fact
and Conclusions of Law,
September 9, 2016 ................ 77a

Appendix F

Texas Court of Criminal
Appeals Order,
June 29, 2016 ...................... 104a

Appendix G

Findings of Fact and
Conclusions of Law,
December 12, 2014 .............. 119a

Appendix H

District Court of Bastrop
County, Texas, Oral Ruling,
November 25, 2014 ............. 131a

Appendix I

Texas Court of Criminal
Appeals Denial of Motion
for Rehearing,
October 4, 2017 .................... 135a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 19-70022
____________
RODNEY REED,
Plaintiff—Appellant,
versus
BRYAN GOERTZ, Bastrop County District Attorney;
STEVE MCCRAW, Texas Department of Public Safety;
SARA LOUCKS, Bastrop County District Clerk;
MAURICE COOK, Bastrop County Sheriff,
Defendants—Appellees.
_________________________________
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:19-CV-794
_________________________________
Before JONES, ELROD, and HIGGINSON, Circuit
Judges.
JENNIFER WALKER ELROD, Circuit Judge:
Rodney Reed was convicted of capital murder in
1998. Since then, he has sought various forms of postconviction relief. This case arises from his motion for
post-conviction DNA testing, which the Texas state
courts denied. Reed brought this lawsuit against certain Texas officials under 42 U.S.C. § 1983. He

2a
challenges the constitutionality of the Texas post-conviction DNA testing statute and seeks to compel the
Texas officials to release the items he wishes to test.
The district court dismissed his claim, and he now appeals. Because Reed’s claim is barred by the statute of
limitations, we AFFIRM the district court’s judgment.
I.
Stacey Stites was reported missing on April 23,
1996 when she failed to show up for her morning shift
at a local grocery store. Reed v. State, 541 S.W.3d 759,
762 (Tex. Crim. App. 2017). A passerby found her body
later that day in the brush alongside a backroad in
Bastrop County, Texas. Ex Parte Reed, 271 S.W.3d
698, 704 (Tex. Crim. App. 2008). Nearby, her shirt and
a torn piece of her belt were also found. Reed v. State,
541 S.W.3d at 762.
At the time of her death, Stites was engaged to
Jimmy Fennell, who was then a police officer in Giddings, Texas, and the two shared his red truck. Id.
Fennell claimed that Stites had likely left their apartment in the truck at her usual hour of 3:00 a.m. to
make it to her shift at work. The truck was later found
in the parking lot of Bastrop High School. Id. The
other half of Stites’s belt lay outside the truck with the
buckle intact. Id.
The medical examiner determined that Stites had
been strangled with her own belt. Id. He also found
intact sperm in Stites’s vagina and, based on other
medical evidence, concluded that Stites had likely
been sexually assaulted prior to her death. Id. The police could not initially match the DNA of the sperm to
anyone, however, and the investigation proceeded for
nearly a year before they matched it to Rodney Reed’s

3a
genetic profile. Reed v. Stephens, 739 F.3d 753, 761
(5th Cir. 2014).
Reed was charged with capital murder. He defended himself on the theory that someone else,
perhaps Stites’s fiancé Fennell, was the murderer.
Reed v. State, 541 S.W.3d at 775. He argued that his
sperm was present not because he had sexually assaulted Stites but because the two had a longstanding
sexual relationship that had been carried on in secret.
Id. The jury rejected these defenses and convicted
Reed of Stites’s murder. Id. at 763.
Reed appealed his conviction and filed repeated
habeas petitions in state court. After the Texas Court
of Criminal Appeals rejected Reed’s first two habeas
petitions, Reed filed a habeas petition in federal court.
Reed v. Thaler, No. A-02-CA-142, 2012 WL 2254216
(W.D. Tex. June 15, 2012). The district court permitted limited discovery and depositions and then stayed
Reed’s federal proceedings to allow him to return to
state court and exhaust several arguments he had
been unable to make up until that point. Reed v. Stephens, 739 F.3d at 763. Reed filed several more habeas
petitions in state court and returned to federal court
several years later to file an amended habeas petition
asserting claims of actual innocence. See id. The district court granted summary judgment to the
government on these claims, and the Fifth Circuit affirmed the district court’s action on appeal. See id.
After Reed’s federal habeas petition was denied,
the state moved to set an execution date. Reed v. State,
541 S.W.3d at 764. Reed moved for post-conviction
DNA testing of several items discovered on or near
Stites’s body and in Fennell’s truck under Chapter 64
of the Texas Code of Criminal Procedure. Id. Chapter

4a
64 allows a convicted person to obtain post-conviction
DNA testing of biological material if the court finds
that certain conditions are met. See Tex. Code Crim.
Proc. Ann. § 64.03. The trial court denied Reed’s Chapter 64 motion, and the Texas Court of Criminal
Appeals ultimately affirmed that decision. Id. Reed
sought certiorari from the Supreme Court of the
United States, which was denied in June 2018, see
Reed v. Texas, 138 S. Ct. 2675 (2018), and his execution was scheduled for November 20, 2019, In re State
ex rel. Goertz, No. 90,124-02, 2019 WL 5955986, at *1
(Tex. Crim. App. Nov. 12, 2019). On November 11,
2019, Reed filed another state habeas petition, which
is still pending review in state court. See Ex Parte
Reed, No. 50,961-10, 2019 WL 6114891, at *1 (Tex.
Crim. App. Nov. 15, 2019).
In August 2019, Reed filed a complaint under 42
U.S.C. § 1983 against Bryan Goertz, the Bastrop
County district attorney, in the United States District
Court for the Western District of Texas, which he later
amended.1 Reed’s amended complaint challenges the
constitutionality of Chapter 64, both on its face and as
applied to him. Reed requested declaratory relief from
the district court stating that Chapter 64 violates the
First, Fourth, Fifth, and Eighth Amendments of the
United States Constitution. Goertz moved to dismiss
under Rules 12(b)(1) and 12(b)(6) of the Federal Rules
of Civil Procedure. The district court denied Goertz’s
12(b)(1) motion but granted the 12(b)(6) motion. The
court dismissed all of Reed’s claims with prejudice.
Reed now appeals the district court’s decision.
Reed initially brought his § 1983 lawsuit against other custodians of physical evidence in Bastrop County, but dismissed his
claims against them in his amended complaint.
1

5a
II.
We review a district court’s grant of a motion to
dismiss de novo. Waste Mgmt. of La., L.L.C. v. River
Birch, Inc., 920 F.3d 958, 963 (5th Cir.), cert denied
140 S. Ct. 628 (2019). To survive a motion to dismiss,
a plaintiff must plead “enough facts to state a claim to
relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). We must accept
all facts as pleaded and construe them in “the light
most favorable to the plaintiff.” Gonzalez v. Kay, 577
F.3d 600, 603 (5th Cir. 2009) (quoting Dorsey v. Portfolio Equities, Inc., 540 F.3d 333, 338 (5th Cir. 2008)).
We review a district court’s jurisdictional determinations, including determinations regarding sovereign
immunity, de novo. City of Austin v. Paxton, 943 F.3d
993, 997 (5th Cir. 2019).
III.
We first consider whether we have jurisdiction to
hear this appeal. Goertz argues that we lack jurisdiction over this appeal because of the Rooker-Feldman
doctrine.2 Goertz is incorrect.
Goertz also asserts that we lack jurisdiction because of the
Eleventh Amendment. He is incorrect. The Eleventh Amendment bars lawsuits against public officials when the state is the
real party in interest. See Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100–02 (1984). Because Goertz is being
sued in his official capacity as a prosecutorial agent of the state
of Texas, the Eleventh Amendment would normally bar a lawsuit
unless immunity has been waived or abrogated, or if there is
some exception. Id. at 99, 102. Here, the Ex Parte Young exception permits Reed to bring his claim against Goertz. Under this
exception, a state official can be subject to a lawsuit if the lawsuit
seeks only prospective relief from a continuing violation of federal law. See Verizon Md., Inc. v. Pub. Serv. Comm’n of Md., 535
U.S. 635, 645 (2002). Contrary to Goertz’s assertions, prospective
2

6a
The Rooker-Feldman doctrine does not apply to
this case. The Rooker-Feldman doctrine precludes federal courts other than the Supreme Court “from
exercising appellate jurisdiction over final state-court
judgments.” Lance v. Dennis, 546 U.S. 459, 463 (2006);
see also Rooker v. Fid. Tr. Co., 263 U.S. 413, 416
(1923); D.C. Ct. of Appeals v. Feldman, 460 U.S. 462,
482 (1983). It is a narrow doctrine applicable only to
“cases brought by state-court losers complaining of injuries caused by state-court judgments rendered
before the federal district court proceedings commenced and inviting district court review and
rejection of those judgments.” Exxon Mobil Corp., v.
Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005).
In this case, the district court correctly concluded
that the doctrine is inapplicable to Reed’s § 1983 claim
because Reed challenged the constitutionality of
Texas’s post-conviction DNA statute. Reed did not attack the Court of Criminal Appeals’ decision itself.
Goertz contests that conclusion, arguing that Reed’s
amended complaint “challenged the [Court of Criminal Appeals’] application of Chapter 64 to him.” Goertz
relief can be either injunctive or declaratory. See Aguilar v. Tex.
Dep’t of Crim. Just., 160 F.3d 1052, 1054 (5th Cir. 1998); see also
Green Valley Special Util. Dist. v. City of Schertz, 969 F.3d 460,
472–73 (5th Cir. 2020) (en banc). As Reed has asserted a claim
for prospective declaratory relief, the Ex Parte Young exception
permits him to bring his claim. Furthermore, taking the facts alleged as true, Goertz has the necessary connection to the
enforcement of the statute. See Morris v. Livingston, 739 F.3d
740, 746 (5th Cir. 2014). According to Reed’s amended complaint,
Goertz has “directed or otherwise caused each of the non-party
custodians of the evidence [that Reed seeks] to refuse to allow
Mr. Reed to conduct DNA testing” on such evidence and “has the
power to control access” to that evidence. This is sufficient for Ex
Parte Young at this stage.

7a
argues that Reed’s challenge “invited federal court review of a state court’s judgment and, if successful,
would ‘effectively nullify’ the [Court of Criminal Appeals’] judgment and would succeed only to the extent
that the [Court of Criminal Appeals] wrongly decided
the issues.”
Goertz’s argument, however, embraces an expansive version of the Rooker-Feldman doctrine that the
Supreme Court has rejected. In Skinner v. Switzer,
the Supreme Court considered the question of
whether “a convicted state prisoner seeking DNA testing of crime-scene evidence” may “assert that claim in
a civil rights action under 42 U.S.C. § 1983.” 562 U.S.
521, 524 (2011). The Court held that the Rooker-Feldman doctrine did not apply to Skinner’s claims
because of the doctrine’s narrow scope. See id. at 531.
Both Rooker and Feldman involved cases where the
plaintiffs, having lost in state court, asked the federal
district courts to overturn a state-court decision. Id.;
Rooker, 263 U.S. at 414; Feldman, 460 U.S. at 479–80.
Skinner’s situation was different, however, because
his § 1983 claims did “not challenge the adverse
[Court of Criminal Appeals’] decisions themselves; instead [they targeted] as unconstitutional the Texas
statute [that the Court of Criminal Appeals’ decisions]
authoritatively construed.” Skinner, 562 U.S. at 532.
Thus, although a state-court decision may be reviewed
only by the Supreme Court, “a statute or rule governing the decision may be challenged in a federal action.”
Id.
This case is no different than Skinner. In state
court, Reed asserted that he was entitled to post-conviction DNA testing of certain evidence. See Reed v.
State, 541 S.W.3d at 764. The Court of Criminal Appeals rejected Reed’s request for post-conviction DNA

8a
testing. In these proceedings, Reed challenges “the
constitutionality of [Chapter] 64 both on its face and
as interpreted, construed, and applied” by the state
court. Like in Skinner, Reed does not challenge the
Court of Criminal Appeals’ decision itself. Instead, he
targets “as unconstitutional the Texas statute [that
the Court of Criminal Appeals’ decision] authoritatively construed.” Skinner, 562 U.S. at 532. If Reed
were to succeed in his § 1983 claims, the Court of
Criminal Appeals’ decision would remain intact. Reed
has therefore asserted an “independent claim” that
would not necessarily affect the validity of the statecourt decision. Exxon, 544 U.S. at 292–93 (quoting
GASH Assocs. v. Vill. of Rosemont, 995 F.2d 726, 728
(7th Cir. 1993)); see also Brown v. Taylor, 677 F. App’x
924, 927 (5th Cir. 2017). The Rooker-Feldman doctrine does not apply.3
IV.
On appeal, Goertz also asserts that Reed’s claims
are barred by the applicable statute of limitations.
Although the district court did not rule on this issue,
we can “affirm the district court’s judgment on any
grounds supported by the record.” United States ex rel
Farmer v. City of Houston, 523 F.3d 333, 338 n.8 (5th
Cir. 2008) (quoting Sobranes Recovery Pool I, LLC v.
Todd & Hughes Constr. Corp., 509 F.3d 216, 221 (5th
Cir. 2007)). Section 1983 claims are subject to a state’s
personal injury statute of limitations. See Walker v.
Goertz also asserts that he is entitled to absolute prosecutorial immunity. Prosecutorial immunity applies only in lawsuits
for damages, not for prospective relief. See Robinson v. Richardson, 556 F.2d 332, 334 n.1 (5th Cir. 1977). Because this is a
lawsuit brought for declaratory relief, Goertz is not entitled to
absolute prosecutorial immunity.
3

9a
Epps, 550 F.3d 407, 411 (5th Cir. 2008). In Texas, the
statute of limitations for personal injury claims is two
years. Tex. Civ. Prac. & Rem. Code Ann. § 16.003(a).
As such, Reed cannot assert any claims that accrued
prior to August 2017.
“We determine the accrual date of a § 1983 action
by reference to federal law.” Walker, 550 F.3d at 414.
Our court has not previously decided when the injury
accrues in a denial of post-conviction DNA testing
claim. However, we have explained that that the limitations period for a § 1983 claim “begins to run ‘the
moment the plaintiff becomes aware the he has suffered an injury or has sufficient information to know
that he has been injured.’” Russell v. Bd. Of Trustees,
968 F.2d 489, 493 (5th Cir. 1992) (quoting Rodriguez
v. Holmes, 963 F.2d 799, 803 (5th Cir. 1992)). The
question in this case is when Reed had sufficient information to know of his alleged injury.
Reed alleges that he was denied access to the
physical evidence that he wished to test. An injury accrues when a plaintiff first becomes aware, or should
have become aware, that his right has been violated.
See Russell, 968 F.2d at 493. Here, Reed first became
aware that his right to access that evidence was allegedly being violated when the trial court denied his
Chapter 64 motion in November 2014. Reed had the
necessary information to know that his rights were allegedly being violated as soon as the trial court denied
his motion for post-conviction relief.
Moreover, Reed did not need to wait until he had
appealed the trial court’s decision to bring his § 1983
claim. The Supreme Court has emphasized “that §
1983 contains no judicially imposed exhaustion requirement; absent some other bar to the suit, a claim

10a
is either cognizable under § 1983 and should immediately go forward, or is not cognizable and should be
dismissed.” Edwards v. Balisok, 520 U.S. 641, 649
(1997) (citation omitted); cf. Savory v. Lyons, 469 F.3d
667, 674 (7th Cir. 2006) (citing Edwards and concluding that ongoing state proceedings do not toll the
statute of limitations for a § 1983 claim for denial of
post-conviction DNA testing). Reed could have
brought his claim the moment the trial court denied
his Chapter 64 motion because there was a “complete
and present cause of action” at that time. Wallace v.
Kato, 549 U.S. 384, 388 (2007) (quoting Bay Area
Laundry and Dry Cleaning Pension Tr. Fund v.
Ferbar Corp. of Cal., 522 U.S. 192, 201 (1997)). Because Reed knew or should have known of his alleged
injury in November 2014, five years before he brought
his § 1983 claim, his claim is time-barred.
V.
For the foregoing reasons, we therefore AFFIRM
the district court’s dismissal of Reed’s claims because
they are not timely.

11a
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
RODNEY REED,
PLAINTIFF

§
§
§
v.
§
§
BRYAN GOERTZ,
§
BASTROP
§
COUNTY
§
DISTRICT
§
ATTORNEY,
§
DEFENDANT §

CIVIL NO. A-19-CV0794-LY
* CAPITAL CASE *

ORDER DISMISSING COMPLAINT
Plaintiff Rodney Reed, a Texas death-row inmate,
is scheduled to be executed on November 20, 2019. On
August 8, 2019, Reed filed a civil-rights complaint arguing that the denial of his motion for DNA testing in
state court denied him, among other things, the right
to due process of law and access to the courts. See 42
U.S.C. § 1983 (“Section 1983”). Reed later amended
his complaint and filed a motion for stay of execution.1
(Doc. #11). Defendant Goertz opposes both of these requests.
Reed filed his initial complaint against the Director of the
Texas Department of Public Safety, as well as the District Attorney, District Clerk, and Sheriff of Bastrop County, Texas.
Following motions to dismiss filed by all Defendants, however,
Reed amended his complaint and named only Bryan Goertz, the
District Attorney of Bastrop County, as a defendant.
1

12a
Currently pending before the court are Reed’s
Amended Complaint2 (Doc. #10), Goertz’s Motion to
Dismiss (Doc. #22), and Reed’s Opposition to the Motion to Dismiss (Doc. #25), as well as Reed’s Motion to
Stay Execution (Doc. #11), Goertz’s opposition (Doc.
#23), and Reed’s reply (Doc. #27). Also before the court
are Goertz’s Motion to Stay Discovery (Doc. #24) and
Reed’s opposition (Doc. #26). For the reasons discussed below, Goertz’s Motion to Dismiss will be
granted and Reed’s complaint will be dismissed for
failing to state a claim upon which relief may be
granted. In addition, Reed’s motion to stay the execution will be denied and Goertz’s motion to stay
discovery dismissed.
I. Background
A. The Crime, Investigation, and Trial
Reed was convicted and sentenced to death for the
1996 abduction, rape, and murder of Stacey Lee
Stites. The evidence introduced during Reed’s capitalmurder trial has been summarized in great detail by
numerous courts, most comprehensively by the Texas
Court of Criminal Appeals (“CCA”) in an opinion following Reed’s third state habeas corpus proceeding.
Ex parte Reed, 271 S.W.3d 698, 702-12 (Tex. Crim.
App. 2008). For purposes of this proceeding, however,
the most relevant summary of the facts is from the
CCA’s 2017 opinion affirming the denial of Reed’s
DNA motion:
[] Stacey Lee Stites’s partially clothed
body was found on the side of a back country
road in Bastrop County on April 23, 1996. She
For simplicity, Reed’s Amended Complaint will hereinafter
be referred to as the complaint.
2

13a
was wearing only a black bra, underwear, undone blue jeans, socks, and a single tennis
shoe, and her H.E.B. name tag was found in
the crook of her knee. A white t-shirt, a piece
of a brown woven belt without a buckle, and
two beer cans were found nearby. Before
Stites’s murder, she was engaged to Jimmy
Fennell, a Giddings police officer at the time,
and the two shared Fennell’s red pick-up
truck. Stites worked the early-morning shift
at H.E.B. and typically drove the truck to
work. The truck was discovered in the Bastrop
High School parking lot after Stites’s disappearance. Among other things inside the
truck, authorities found Stites’s other shoe
and broken pieces of a green plastic cup. Outside the truck, police found a piece of a brown
woven belt with the buckle attached.
Department of Public Safety (DPS) crime
scene investigators Karen Blakley, Wilson
Young, and Terry Sandifer processed Stites’s
body, the truck, and the scene where Stites
was found. Blakley testified at trial that the
murder weapon was the belt “[b]ecause it
matched the pattern that was on [Stites’s]
neck.” Blakley also concluded that the two belt
pieces matched and were torn, not cut. Because Stites was found partially clothed and
with her pants ripped open, Blakley presumed
a sexual assault preceded the murder. At the
scene, Blakley further observed Stites’s underwear was wet in the crotch and bunched
around her hips, so she tested the crotch of the
underwear for semen. Getting a positive result, Blakley collected DNA samples from

14a
Stites’s vagina and breasts. Blakley did not
collect samples from Stites’s rectum because
rigor mortis had already set in. Blakley also
observed scratches on Stites’s arms and abdomen, a cigarette burn on her arm, and what
appeared to be fire ant bites on her wrists. To
preserve any DNA evidence under her fingernails, DPS investigators put plastic bags over
Stites’s hands.
Dr. Robert Bayardo, the Travis County
Medical Examiner, conducted Stites’s autopsy
the day after her body was found. He determined that Stites died around 3:00 a.m. on
April 23rd. He also concluded that the belt
was the murder weapon and that Stites died
of asphyxiation by strangulation. Like
Blakley, Bayardo presumed Stites was sexually assaulted, took vaginal swabs, and
found sperm with both heads and tails intact.
He also took rectal swabs but found only
sperm heads with no tails. He noted that her
anus was dilated with superficial lacerations.
Dr. Bayardo thought the presence of sperm in
the anus was indicative of penile penetration,
but noted that it may have been attributed to
seepage from the vagina. He concluded that
Stites’s anal injuries occurred at or around the
time of death and therefore were not acts of
consensual sexual activity.
When Young and Sandifer processed the
truck for evidence, neither found fingerprints,
blood, or semen identifying the perpetrator.
However, they and Ranger L.T. Wardlow, the
lead investigator on the case, noted the

15a
driver’s seat position was reclined with the
seatbelt fastened as if someone was pulled out
of the seat while buckled in. Young, who stood
six feet, two inches, also noticed that when he
sat in the reclined driver’s seat, he had a clear
view out of the back window in the rearview
mirror. Based on this, they concluded that
someone who was six-foot-two or of similar
height must have driven the truck.
Five days after Stites’s body was found, a
citizen reported finding some items they believed were connected to Stites’s murder. The
report, written by Officer Scoggins, stated
that the citizen reported that a part of a shirt,
two condoms, and part of a knife handle were
found. At trial, Ranger Wardlow testified that
he did not have personal knowledge about who
brought in the condoms. However, he testified
that he saw the condoms a short while after
they were brought in and confirmed that the
condoms “appeared to be old and cracked and
worn out.” These items were not tested for
DNA evidence before trial.
Police investigated Stites’s murder over
the course of eleven months. During that time,
police obtained twenty-eight biological samples from twenty-eight males. None of them
matched the biological evidence found in and
on Stites’s body. After following several theories and lines of investigation—ruling out
people Stites knew personally—police learned
information about Reed that could make him
a suspect. Reed was about the same height as
Young, lived near the Bastrop High School,

16a
and frequently walked the area late at night.
Police learned from DPS that Reed had an existing DNA sample on file and had DPS test it
against the vaginal swabs taken by Blakley.
Two different DNA tests of the samples concluded that Reed could not be excluded as a
donor of the semen. Looking for more conclusive results, DPS forwarded the samples to
LabCorp for additional testing. Again, the results could not exclude Reed and determined
that the samples matched Reed’s genetic profile. The LabCorp technician, as well as
Blakley, testified that intact sperm did not
live more than twenty-four hours after commission of a vaginal-sexual assault and sperm
breaks down faster in the rectal area than in
the vaginal vault.
Reed v. State, 541 S.W.3d 759, 762-63 (Tex. Crim. App.
2017).
Following the discovery that Reed’s DNA matched
the DNA recovered from Stites’s body, police provided
Reed with Miranda3 warnings and interviewed him.
Reed denied knowing Stites. In May 1997, Reed was
charged with capital murder. At trial the following
year, prosecutors presented the evidence discovered
during the murder investigation, as well as the testimony of Dr. Bayardo, Blakley, and DNA analyst
Meghan Clement. In response, Reed’s defense team
mounted a two-pronged challenge to the State’s evidence. First, the defense attempted to show that
someone else, possibly Stites’s fiancé Jimmy Fennell,
had committed the offense. Second, to explain the
3

Miranda v. Arizona, 384 U. S. 436 (1966).

17a
presence of Reed’s semen in Stites’s body, the defense
attempted to establish that Reed had an ongoing romantic relationship with Stites and that the semen
was the result of consensual intercourse. After weighing the evidence, the jury ultimately rejected Reed’s
defense and found him guilty of capital murder. Reed
was sentenced to death after a separate punishment
hearing, where the jury heard evidence that Reed had
committed numerous other sexual assaults.
B. Reed’s Post-Conviction Proceedings
Reed appealed his conviction on several grounds,
including that the evidence was factually insufficient
to support his conviction for capital murder. On December 6, 2000, the CCA rejected these claims,
holding that “the strength of the DNA evidence connecting [Reed] to the sexual assault on [Stites] and the
forensic evidence indicating that the person who sexually assaulted [her] was the person who killed her, a
reasonable jury could find that [Reed] is guilty of the
offense of capital murder.” Reed v. State, No. AP73,135 (Tex. Crim. App.) (unpublished).
Since then, Reed has repeatedly challenged the
constitutionality of his conviction and sentence in
state court, having filed ten habeas corpus applications raising numerous allegations for relief. Each of
the applications by Reed includes claims that newlydiscovered evidence supports his assertion that he is
actually innocent and that the State’s failure to disclose this evidence violated his due-process rights
under Brady v. Maryland, 373 U.S. 83 (1963). On
these issues alone, Reed has, over a lengthy period of
time, provided the state courts with a variety of evidence to support his allegations and has received no
less than three evidentiary hearings on the matters.

18a
To date, each of these applications has either been dismissed or denied, with neither the trial court nor the
CCA ever seriously questioning the integrity of his
conviction. See, e.g., Ex parte Reed, Nos. WR-50,96108, WR-50,961-09, 2019 WL 2607452, at *1-3 (Tex.
Crim. App. June 26, 2019).4
Reed has also challenged the constitutionality of
his conviction and sentence in federal court, having
sought federal habeas corpus relief from this court following the CCA’s rejection of his first and second state
habeas corpus applications. See Reed v. Thaler, No.
1:02-cv-142-LY (W.D. Tex). After permitting limited
discovery and depositions, this court stayed Reed’s
federal proceedings to allow him to return to state
court to exhaust claims that had not been presented
to the state court in his previous state habeas corpus
proceedings. Upon his return to federal court some six
years later, Reed filed an amended petition raising,
among other claims, a freestanding claim of actual innocence and a gateway claim of actual innocence to
help overcome the procedural default of certain allegations. The State moved for summary judgment, and
on June 15, 2012, a magistrate judge issued a comprehensive report and recommendation listing each of
Reed’s allegations and recommending their denial. A
few months later, this court issued an order largely
adopting the magistrate judge’s recommendations
and, relative to Reed’s claims of actual innocence,
finding there was no credible evidence to support the
conclusions that Reed had a consensual relationship
with Stites or that someone other than Reed murdered her. The decision was affirmed by the Fifth
Reed’s tenth state habeas corpus application, filed November 11, 2019, is currently pending in the CCA.
4

19a
Circuit Court of Appeals in January 2014. Reed v. Stephens, 739 F.3d 753 (5th Cir. 2014).
C. Reed’s Post-Conviction Motion for DNA
Testing
In April 2014, the State moved the state trial
court to set an execution date for Reed. At a July 2014
hearing on the matter, Reed moved the trial court,
pursuant to Chapter 64 of the Texas Code of Criminal
Procedure, Tex. Code Crim. Proc. § 64 (“Chapter 64”),
to have post-conviction DNA testing performed on a
large number of items, including: (1) items recovered
from Stites’s body or her clothing, (2) items found in
or near Fennell’s truck, and (3) items located near the
site where Stites’s body was found. The trial court
held a hearing on the motion, at which Reed expanded
his request for testing to include numerous additional
items found near the crime scene. Reed also presented
the testimony of John Paulucci, an expert in crimescene investigation, and Deanna Lankford, an expert
in DNA testing. The State presented the testimony of
three witnesses: Sergeant Gerald Clough, an investigator with the Office of the Attorney General; Etta
Wiley, a Bastrop County Deputy Clerk; and Lisa Tanner, the lead prosecutor at Reed’s trial.
The trial court denied Reed’s DNA motion and issued findings of fact and conclusions of law on the
matter. On appeal, the CCA remanded the case for additional findings, which the trial court rendered. On
subsequent appeal, the CCA affirmed the trial court’s
denial of DNA testing in an opinion delivered April 12,
2017. Reed, 541 S.W.3d at 759. Citing the requirements set forth by Chapter 64, both the trial court and
the CCA found that Reed failed to demonstrate: (1) the
evidence had been subjected to a chain of custody

20a
sufficient to establish it had not been substituted,
tampered with, replaced, or altered in any material
respect; (2) he would not have been convicted if exculpatory results had been obtained through DNA
testing; and (3) his DNA motion was not made to unreasonably delay the execution of his sentence. Id. at
769-79; see Tex. Code Crim. Proc. Article 64.03(a).
Reed appealed the CCA’s decision to the United States
Supreme Court, which denied certiorari. Reed v.
Texas, __ U.S. __, 138 S. Ct. 2675 (2018).
D. Reed’s Civil Rights Complaint
On July 23, 2019, the trial court scheduled Reed
to be executed on November 20, 2019. Two weeks
later, Reed filed this civil-rights action challenging
the constitutionality of Chapter 64 “both on its face
and as interpreted, construed, and applied” by the
CCA. Specifically, Reed asserts a due-process violation resulted from the CCA’s imposition of “arbitrary”
conditions on Chapter 64, which effectively precludes
DNA testing in most cases and eviscerates the relief
Chapter 64 was designed to provide. He also contends
the CCA’s interpretation of Chapter 64 has unconstitutionally deprived him of his rights under both the
United States Constitution and the Texas Constitution to access the courts, to be free from cruel and
unusual punishment, and to establish his innocence.
Reed requests declaratory relief from this court stating that Chapter 64, as construed by the CCA, violates
the First, Fifth, Eighth, and Fourteenth Amendments. See U.S. CONST. amend. I, V, VIII, and XIV.
He also asks this court to stay his upcoming execution
pending a resolution of this action.

21a
II. Jurisdiction
Pursuant to Rule 12(b)(1) of the Federal Rules of
Civil Procedure, a federal court must dismiss a case
for lack of subject-matter jurisdiction “when the court
lacks the statutory or constitutional power to adjudicate the case.” Home Builders Ass’n of Miss., Inc., v.
City of Madison, 143 F.3d 1006, 1010 (5th Cir. 1998).
Reed has filed a Section 1983 complaint challenging
the constitutionality of the Texas DNA statute—
Chapter 64—as authoritatively construed by the state
court. The Supreme Court has found that such challenges may be brought in a Section 1983 action. See
Skinner v. Switzer, 562 U.S. 521, 525 (2011) (holding
“postconviction claim for DNA testing is properly pursued in a [Section] 1983 action.”). This is so because
success in this civil-rights action, unlike a petition for
habeas corpus relief, would not “necessarily imply” the
invalidity of Reed’s conviction. Id. at 534 (quoting Wilkinson v. Dotson, 544 U.S. 74, 81-82 (2005)). In fact,
DNA testing could potentially prove inconclusive or
may even further incriminate Reed. Because Reed’s
complaint would not “necessarily spell speedier release,” his suit is properly brought under Section
1983. Young v. Gutierrez, 895 F.3d 829, 831 (5th Cir.
2018) (citing Skinner, 562 U.S. at 534).
Nevertheless, Goertz requests dismissal of Reed’s
complaint under Rule 12(b)(1), arguing first that this
court lacks subject-matter jurisdiction over the complaint under what is known as the Rooker-Feldman
doctrine.5 The doctrine is a jurisdictional rule that
precludes the lower federal courts from reviewing
The Rooker-Feldman doctrine derives from Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923), and District of Columbia
Court of Appeals v. Feldman, 460 U.S. 462 (1983).
5

22a
state-court judgments. Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 291-92 (2005). The
Supreme Court is the only federal court vested with
authority to review a state court’s judgment. Id.; see
28 U.S.C. § 1257(a) (providing, in relevant part, that
“[f]inal judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari” if they involve an issue of federal law). Given the
“narrow ground” the doctrine occupies, however, the
Supreme Court confined Rooker-Feldman “to cases ...
brought by state-court losers ... inviting district court
review and rejection of [a state court’s] judgments.”
Id. at 283-84.
Reed’s case does not fall within this narrow
ground. Although it is true a state-court decision is
not reviewable by a lower federal court under the
Rooker-Feldman doctrine, the Supreme Court has
clarified that “a statute or rule governing the decision
may be challenged in a federal action.” Skinner, 562
U.S. at 532 (citing Exxon, 544 U.S. at 284). Here,
Reed’s complaint specifically asserts that Reed is challenging “the constitutionality of [Chapter] 64 both on
its face and as interpreted, construed, and applied” by
the CCA. Because Reed is not challenging the adverse
state-court decisions themselves but rather the validity of the Texas DNA statute they authoritatively
construe, the Rooker-Feldman doctrine is inapplicable. Skinner, 562 U.S. at 530 (holding district court
had jurisdiction to consider prisoner’s Section 1983
case seeking DNA testing of evidence because case
challenged “Texas’ post-conviction DNA statute ‘as
construed’ by the Texas courts” rather than challenging prior decisions denying requests for DNA testing
through state-law procedures).

23a
Goertz also asserts that dismissal of Reed’s complaint is warranted under Rule 12(b)(1) because this
court lacks subject-matter jurisdiction under the Eleventh Amendment. The Eleventh Amendment
generally provides immunity to a State defendant
against suits in federal court by a citizen of the State
against the State or a state agency or department.
U.S. CONST. amend. XI; Saahir v. Estelle, 47 F.3d
758, 760-61 (5th Cir. 1995) (citing Pennhurst State
Sch. & Hosp. v. Halderman, 465 U.S. 89, 97-99
(1984)). When only state officials have been sued, the
suit is barred if “the [S]tate is the real, substantial
party in interest.” Pennhurst, 465 U.S. at 101.
Goertz argues that, as an agent of the State of
Texas, the Eleventh Amendment provides him immunity from this suit because the State is the real
party here.
However, there is a narrow exception to Eleventh
Amendment immunity when a plaintiff sues state officials for an allegedly ongoing violation of federal law
and seeks prospective, declaratory, or injunctive relief. See Ex parte Young, 209 U.S. 123, 155-56 (1908).
The Supreme Court has held that enforcement of an
unconstitutional law is not an official act, because a
state cannot confer authority on its officers to violate
the Constitution or federal law. Pennhurst, 465 U.S.
at 102-03 (finding suit challenging constitutionality of
state official’s action is not one against the State and
thus is not barred by Eleventh Amendment); Aguilar
v. Texas Dep’t of Criminal Justice, 160 F.3d 1052,
1054 (5th Cir. 1998) (same) (citation omitted). To determine whether Ex parte Young applies, the court
need only conduct a “straightforward inquiry into
whether [the] complaint alleges an ongoing violation

24a
of federal law and seeks relief properly characterized
as prospective.” Verizon Md., Inc. v. Public Serv.
Comm’n of Md., 535 U.S. 635, 645 (2002) (citation
omitted). Because Reed alleges a violation of federal
law by an individual acting in an official capacity as
an agent of the State and seeks prospective declaratory relief in this lawsuit, his claims are not barred by
sovereign immunity. Aguilar, 160 F.3d at 1054. Contrary to Goertz’s assertions, therefore, the court does
not lack subject-matter jurisdiction.
III. Standard of Review
Goertz also requests a dismissal of Reed’s complaint under Rule 12(b)(6) of the Federal Rules of Civil
Procedure. A prisoner’s civil-rights complaint should
be dismissed if it is frivolous, malicious, or fails to
state a claim upon which relief may be granted. 28
U.S.C. § 1915A(b)(1); Fed. R. Civ. P. 12(b)(6). Although a complaint does not need detailed factual
allegations, a plaintiff must allege sufficient facts to
show more than a speculative right to relief. Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007).
Conclusory allegations and a formulaic recitation of
the elements of a cause of action will not suffice to prevent dismissal for failure to state a claim. Id. To
withstand dismissal for failure to state a claim, a
plaintiff must plead “enough facts to state a claim to
relief that is plausible on its face.” Ashcroft v. Iqbal,
556 U.S. 662, 678-79 (2009) (quoting Twombly, 550
U.S. at 570). A claim is plausible on its face when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged. Iqbal, 556 U.S. at
678-79. This plausibility standard is not simply a
“probability requirement,” but imposes a standard

25a
higher than “a sheer possibility that a defendant has
acted unlawfully.” Id. Thus, a district court’s dismissal of a complaint for failing to state a claim will be
upheld if, “taking the plaintiff’s allegations as true, it
appears that no relief could be granted based on the
plaintiff’s alleged facts.” Samford v. Dretke, 562 F.3d
674, 678 (5th Cir. 2009).
IV. Analysis
A. The Due-Process Claim
Goertz moves to dismiss Reed’s Section 1983
claims for failing to state a claim upon which relief
may be granted. To state a claim under Section 1983,
a plaintiff must prove that: (1) the conduct in question
was committed by a person acting under the color of
state law, and (2) the conduct deprived the claimant
of a constitutional right. Kovacic v. Villarreal, 628
F.3d 209, 213 (5th Cir. 2010). In his complaint, Reed
contends that the Texas DNA statute, as construed by
the CCA, violates procedural due process because it
imposes “arbitrary” and extra-statutory conditions
upon individuals seeking DNA testing.6 While there is
no freestanding right for a convicted defendant to obtain evidence for post-conviction DNA testing, Texas
According to Reed, the CCA’s interpretation of Chapter 64
violates fundamental fairness in several ways, including: (1) imposing a flawed chain-of-custody requirement; (2) improperly
limiting the definition of “exculpatory” only to results excluding
the convicted person as the donor of the material; (3) failing to
consider post-trial factual developments in determining whether
he would have been convicted in light of presumed exculpatory
DNA results; and (4) erroneously finding “unreasonable delay” in
bringing his DNA motion even though the “touch DNA” testing
he requested did not become available under the statute until
2014.
6

26a
has created such a right, and, as a result, the stateprovided procedures must be adequate to protect the
substantive rights provided. Skinner v Switzer, 562
U.S. 521, 525 (2011); Dist. Attorney’s Office for Third
Judicial Dist. v. Osborne, 557 U.S. 52, 69 (2009). In
order for the procedures to be unconstitutional, the
court would have to determine that the procedures are
inadequate to protect Reed’s right to seek post-conviction DNA testing and offend “some principle of justice
so rooted in the traditions and conscience of our people
as to be ranked as fundamental.” Skinner, 562 U.S. at
525; Osborne, 557 U.S. at 69.
Chapter 64 permits a convicted defendant to move
in the convicting court for post-conviction DNA testing
of evidence. But Chapter 64 only allows the convicting
state court to order testing if it finds that: (1) the evidence still exists and is in a condition that makes DNA
testing possible; (2) the evidence has been subject to a
chain of custody sufficient to establish that it has not
been substituted, tampered with, replaced, or altered
in any material respect; (3) identity was or is an issue
in the case; (4) the convicted person establishes by a
preponderance of the evidence that he would not have
been convicted if DNA testing provided exculpatory
results; and (5) the motion is not made to unreasonably delay the execution of a sentence. Tex, Code Crim.
Proc. Art. 64.03(a). The CCA affirmed the denial of
Reed’s DNA motion because Reed could not establish
the chain-of-custody requirement or prove “by a preponderance of the evidence that, in light of presumed
exculpatory DNA results, he would not have been convicted,” Reed, 541 S.W.3d at 774-78. The court also
found that Reed failed to show that his motion was not
made to unreasonably delay the execution of his sentence or the administration of justice. Id.

27a
There is nothing so egregious in Chapter 64 that
rises to the level of a procedural due-process violation.
Reed has not met the heavy burden of showing that
the procedures established by Chapter 64, as construed by the CCA, are inadequate to protect a
defendant’s right to post-conviction DNA testing. Considering Reed fully utilized the process enacted by the
Texas Legislature to obtain DNA testing, all Reed has
shown is that he disagrees with the state court’s construction of Texas law. That is not enough.
After careful consideration, this court is unable to
find any failure of the state’s procedures that “offends
some principle of justice so rooted in the traditions
and conscience of our people as to be ranked as fundamental” or that “transgress[es] any recognized
principle of fundamental fairness in operation.” Moon
v. City of El Paso, 906 F.3d 352, 359 (5th Cir. 2018)
(citing Osborne, 557 U.S. at 69). Indeed, there is
simply “nothing inadequate about the procedures
[Texas] has provided to vindicate its state right to
postconviction relief in general,” or anything “inadequate about how those procedures apply to those who
seek access to DNA evidence.” Osborne, 557 U.S at 70;
see also Pruett v. Choate, 711 F. App’x 203, 206-07 (5th
Cir. 2017) (unpublished) (finding plaintiff’s assertions
regarding CCA’s interpretation of Chapter 64 “boil
down to the bare claim that the CCA misapplied Texas
law” and not a due-process violation).7 In other words,
Reed fails to establish that Chapter 64, as construed

“An unpublished opinion issued after January I, 1996 is
not controlling precedent, but may be persuasive authority. 5th
Cir. R. 47.5.4.” Ballard v. Burton, 444 F.3d 391, 401 & n.7 (5th
Cir. 2006).
7

28a
by the CCA, denies him procedural due process. Skinner, 562 U.S. at 525.
B. Access to Courts
Reed next contends that the CCA’s interpretation
of Chapter 64 prevents him from gaining access to potentially exculpatory information that could
demonstrate his innocence. According to Reed, this
lack of information interferes with his First and Fourteenth Amendment rights of access to the courts, as it
prevents him from collecting evidence to support either a successive habeas corpus petition or an
application for clemency. U.S. CONST. amend. I, XIV.
This claim fails to state a claim upon which relief may
be granted.
It is well established that prisoners have a constitutional right of access to the courts that is “adequate,
effective, and meaningful.” Terry v. Hubert, 609 F.3d
757, 761 (5th Cir. 2010) (quoting Bounds v. Smith, 430
U.S. 817, 822 (1977)). That being said, “[o]ne is not
entitled to access to the courts merely to argue that
there might be some remote possibility of some constitutional violation.” Whitaker v. Collier, 862 F.3d 490,
501 (5th Cir. 2017) (quoting Whitaker v. Livingston,
732 F.3d 465, 467 (5th Cir. 2013)). Rather, a plaintiff
must show an actual injury and an actual legal claim
to establish a valid access-to-courts claim. Lewis v.
Casey, 518 U.S. 343, 350-52 (1996); see also Turner v.
Epps, 460 F. App’x. 322, 328 (5th Cir. 2012) (explaining that “an inmate who brings a § 1983 claim based
upon his right of access to the courts must be able to
show that the infringing act somehow defeated his
ability to pursue a legal claim.”). This requirement reflects the fact that “the very point of recognizing any
access claim is to provide some effective vindication

29a
for a separate and distinct right to seek judicial relief
for some wrong.” Christopher v. Harbury, 536 U.S.
403, 414-15 (2002).
In addition to Reed’s access-to-courts claim,
Reed’s civil-rights action alleges that Chapter 64—on
its face and as construed by the CCA—violates his
due-process rights, the Eighth Amendment, the Texas
Constitution, and his right to establish his innocence.
But Reed has presented nothing which permits this
court to conclude that his rights under the United
States Constitution or Texas Constitution are violated
by Chapter 64. Reed thus cannot establish the necessary prerequisite of an “actual injury” to support his
access-to-courts claim when he has no colorable claim
to present to the court in the first place. “Plaintiffs
must plead sufficient facts to state a cognizable legal
claim.” Whitaker, 732 F.3d at 467. Because Reed has
not met the pleadings standards for the claims he
raises, any access-to-the-courts theory fails as well.
Furthermore, although Reed argues the denial of
his DNA motion impedes access to evidence he needs
in order to pursue another actual-innocence claim in
state court, the right of access to the courts does not
encompass the ability “to discover grievances, and to
litigate effectively once in court.” Lewis, 518 U.S. at
354 (emphasis in original). Reed points to no actual
claim that he was prevented from lodging in a court of
law. Although Reed sought DNA testing to support a
potential actual-innocence claim, his request was
evaluated by the state trial court pursuant to the statutory process set forth in Chapter 64. State v. Reed,
No. 8701 (21st Dist. Ct., Bastrop Cnty., Tex. Sept. 9,
2016) (Findings of Fact and Conclusions of Law). Reed
also took advantage of the right to appeal the state

30a
trial court’s decision to the CCA as set forth in the
statute. See Tex. Code Crim. Proc. Article 64.05. Considering Reed fully utilized the processes of Chapter
64, he has shown only that his state-court motion was
denied. That is not enough to establish an “actual injury” to support a claim that his right of access to the
courts was obstructed. Reed’s claim therefore fails.
C. The Eighth Amendment
Reed argues that Chapter 64 violates the Eighth
Amendment’s prohibition on cruel-and-unusual punishment because the CCA has interpreted Chapter 64
to allow the denial of DNA testing even under circumstances where such testing has the capacity to prove
innocence. See U.S. CONST. amend. VIII. Without the
opportunity to establish his innocence with potentially exculpatory DNA results, Reed contends, his
execution will constitute cruel-and-unusual punishment. Reed provides no argument to support this
assertion, nor is the court aware of any precedent indicating the denial of DNA testing constitutes an
Eighth Amendment violation. Indeed, Reed’s argument essentially seeks to constitutionalize a right to
DNA testing under the Eighth Amendment whenever
such testing “has the capacity to prove innocence,” a
notion the Supreme Court unambiguously rejected in
Osborne. 557 U.S. at 72 (rejecting invitation to recognize “a freestanding right to DNA evidence” and
concluding there is no substantive due-process postconviction right to obtain evidence for DNA testing
purposes). As such, Reed fails to state a viable Eighth
Amendment claim.
D. Actual Innocence
In a related allegation, Reed refers to an asserted
constitutional right to prove his “actual innocence.”

31a
The State’s refusal to allow DNA testing, Reed argues,
deprives him of “the opportunity to make a conclusive
showing that he is actually innocent . . . in violation of
the Eighth Amendment, the right to access to courts,
the right to a remedy, and the Due Process Clause of
the Fourteenth Amendment[.]” But whether such a
federal right exists is “an open question.” Osborne, 557
U.S. at 71. Reed fails to provide this court with authority establishing such a right and does not state a
claim upon which relief may be granted.
Further, like the previous Eighth Amendment
claim, Reed’s attempt to establish a right to demonstrate his actual innocence through DNA testing fails
under Osborne. “One of the main reasons underlying
the decision in Osborne is that it should be primarily
up to the state and federal legislatures to fashion procedures that balance the powerful exonerating
potential of DNA evidence with the need for maintaining the existing criminal justice framework and the
finality of convictions and sentences.” See Alvarez v.
Attorney Gen. for Fla., 679 F.3d 1257, 1265 (11th Cir.
2012) (citing Osborne, 557 U.S. at 62-63, 72-74), Although Reed asks this court to establish a right to DNA
testing under the Eighth Amendment, such a holding
would squarely conflict with the Supreme Court’s explicit rejection of the invitation “[t]o suddenly
constitutionalize this area.” Osborne, 557 U.S. at 73
(“We are reluctant to enlist the Federal Judiciary in
creating a new constitutional code of rules for handling DNA.”). Only the Supreme Court may expand
the existing parameters set forth in Osborne.
E. Claims Under the Texas Constitution
The dismissal of the above allegations leaves
Reed’s corresponding claim that his rights under the

32a
Texas Constitution were also violated. The Supreme
Court has cautioned federal courts to avoid “[n]eedless
decisions of state law” when, in situations such as
this, the corresponding federal claims have been dismissed. United Mine Workers v. Gibbs, 383 U.S. 715
726 (1966) (“Certainly, if the federal claims are dismissed before trial, even though not insubstantial in
a jurisdictional sense, the state claims should be dismissed as well.”). And the general rule in the Fifth
Circuit “is to dismiss state claims when the federal
claims to which they are pendent are dismissed.”
Enochs v. Lampasas Cty., 641 F.3d 155, 161 (5th Cir.
2011) (citing Parker & Parsley Petroleum Co. v.
Dresser Industries, 972 F.2d 580, 585 (5th Cir. 1992));
Brookshire Bros. Holding Inc. v. Dayco Products, Inc.,
554 F.3d 595, 602 (5th Cir. 2009) (noting that “the
general rule is that a court should decline to exercise
jurisdiction over remaining state-law claims when all
federal-law claims are eliminated before trial”). For
these reasons, the court declines to exercise pendant
jurisdiction over Reed’s state-law claims.
V. Motion to Stay Execution
Reed asks this court to stay his upcoming execution to allow for more time to review the claims raised
in his complaint. A federal court has inherent discretion when deciding whether to stay an execution. See
28 U.S.C. § 2251(a)(1); Nken v. Holder, 556 U.S. 418,
434 (2009). However, “a stay of execution is an equitable remedy, and an inmate is not entitled to a stay
of execution as a matter of course.” Hill v.
McDonough, 547 U.S. 573, 583-84 (2006); Murphy v.
Collier, 919 F.3d 913, 915 (5th Cir. 2019). In deciding
whether to grant a stay of execution, a court must consider: (1) whether the stay applicant has made a

33a
strong showing that he is likely to succeed on the merits; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the stay
will substantially injure the other party interested in
the proceeding; and (4) where the public interest lies.
Nken, 556 U.S. at 425-26.
The Nken factors support denying Reed’s Motion
to Stay Execution.8 In particular, Reed fails to show a
likelihood of success on the merits. Reed requests a
stay of execution so that the court may consider the
issues raised in his complaint: namely, whether Chapter 64, as interpreted by the state trial court and CCA,
violates Reed’s constitutional rights under both the
United States and Texas Constitutions. Because the
court rejects Reed’s claims, he cannot demonstrate a
likelihood of success on the merits. See Diaz v. Stephens, 731 F.3d 370, 379 (5th Cir. 2013) (affirming
denial of stay when movant fails to establish likelihood of success on the merits).
Furthermore, equitable considerations weigh
against granting Reed’s Motion to Stay Execution.
This court applies “a strong equitable presumption
against the grant of a stay where a claim could have
been brought at such a time as to allow consideration
of the merits without requiring entry of a stay.” Murphy, 919 F.3d at 915 (citing Hill, 547 U.S. at 584).
Here, Reed waited until the trial court held a hearing
on the State’s motion to set an execution date before
The second Nken factor—the possibility of irreparable injury—”weighs heavily in the movant’s favor.” O’Bryan v. Estelle,
691 F.2d 706, 708 (5th Cir. 1982) (per curiam). But an applicant
is not entitled to a stay “[as] a matter of right, even if irreparable
injury might otherwise result to the appellant.” Nken, 556 U.S.
at 427 (internal quotation marks omitted).
8

34a
seeking DNA testing under Chapter 64, despite the
fact (1) he was convicted nearly 16 years previously,
and (2) Chapter 64 had existed with only slight variations for over 13 years at the time Reed filed his
motion. The CCA found that “there does not appear to
be any factual or legal impediments that prevented
Reed from availing himself of post-conviction DNA
testing earlier.” Reed, 541 S.W.3d at 779. Reed did not
file this action until the state trial court scheduled his
current execution date. Reed contends his state DNA
proceedings “were marred by striking irregularities
and delays requested by the State.” But this does not
explain the delay in filing this action over two years
after the conclusion of Reed’s state DNA proceedings.
The court will deny the request for stay.
VI. Conclusion and Order
Contrary to arguments made by Goertz, neither
the Rooker-Feldman doctrine nor the Eleventh
Amendment divest this court of subject-matter jurisdiction over Reed’s claims for relief. However, Reed’s
complaint fails to state a claim upon which relief may
be granted because there is nothing inadequate about
how Chapter 64’s procedures apply to those who seek
access to DNA evidence. See 28 U.S.C. § 1915A(b)(1);
Fed. R. Civ. P. 12(b)(6).
It is therefore ORDERED that Goertz’s Motion to
Dismiss, filed October 15, 2019 (Doc. #22), is hereby
GRANTED.
It is further ORDERED that Reed’s Amended
Complaint (Doc. #10) seeking declaratory relief is
DISMISSED WITH PREJUDICE for failing to state
a claim upon which relief may be granted. 28 U.S.C. §
1915A(b)(1); Fed. R. Civ. P. 12(b)(6).

35a
It is further ORDERED that Reed’s Motion to
Stay Execution, filed October 1, 2019 (Doc. #11), is
DENIED.
Finally, it is ORDERED that Goertz’s Motion to
Stay Discovery, filed October 15, 2019 (Doc. #24), is
DISMISSED.
SIGNED this the 15th day of November, 2019.

36a
APPENDIX C

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
____________
NO. AP-77,054
____________
RODNEY REED, Appellant,
v.
THE STATE OF TEXAS
____________
ON DIRECT APPEAL FROM CAUSE NUMBER
8701 IN THE 21ST DISTRICT COURT
BASTROP COUNTY
____________
KEASLER, J., delivered the opinion of the
Court in which KELLER, P.J., and HERVEY, ALCALA, RICHARDSON, YEARY, KEEL, and WALKER, JJ.,
joined. NEWELL, J., not participating.

37a
OPINION
Rodney Reed sought post-conviction DNA testing
of over forty items collected in the course of investigating Stacey Stites’s sexual assault and murder. This
investigation culminated in Reed’s conviction and sentence of death for the capital murder of Stites. The
trial judge denied the motion. Because Reed cannot
establish that exculpatory DNA results would have
resulted in his acquittal and his motion is not made
for the purpose of unreasonable delay, we affirm the
trial judge’s denial.
I. Background
A. Trial
Because we detailed the case’s factual background
elsewhere,1 only the facts relevant to Reed’s current
DNA appeal are included in this opinion. Stacey Lee
Stites’s partially clothed body was found on the side of
a back country road in Bastrop County on April 23,
1996. She was wearing only a black bra, underwear,
undone blue jeans, socks, and a single tennis shoe,
and her H.E.B. name tag was found in the crook of her
knee. A white t-shirt, a piece of a brown woven belt
without a buckle, and two beer cans were found
nearby. Before Stites’s murder, she was engaged to
Jimmy Fennell, a Giddings police officer at the time,
and the two shared Fennell’s red pick-up truck. Stites
worked the early-morning shift at H.E.B. and typically drove the truck to work. The truck was
discovered in the Bastrop High School parking lot after Stites’s disappearance. Among other things inside
the truck, authorities found Stites’s other shoe and
See Ex parte Reed, 271 S.W.3d 698, 702–12 (Tex. Crim.
App. 2008).
1

38a
broken pieces of a green plastic cup. Outside the truck,
police found a piece of a brown woven belt with the
buckle attached.
Department of Public Safety (DPS) crime scene investigators Karen Blakley, Wilson Young, and Terry
Sandifer processed Stites’s body, the truck, and the
scene where Stites was found. Blakley testified at trial
that the murder weapon was the belt “[b]ecause it
matched the pattern that was on [Stites’s] neck.”
Blakley also concluded that the two belt pieces
matched and were torn, not cut. Because Stites was
found partially clothed and with her pants ripped
open, Blakley presumed a sexual assault preceded the
murder. At the scene, Blakley further observed
Stites’s underwear was wet in the crotch and bunched
around her hips, so she tested the crotch of the underwear for semen. Getting a positive result, Blakley
collected DNA samples from Stites’s vagina and
breasts. Blakley did not collect samples from Stites’s
rectum because rigor mortis had already set in.
Blakley also observed scratches on Stites’s arms and
abdomen, a cigarette burn on her arm, and what appeared to be fire ant bites on her wrists. To preserve
any DNA evidence under her fingernails, DPS investigators put plastic bags over Stites’s hands.
Dr. Robert Bayardo, the Travis County Medical
Examiner, conducted Stites’s autopsy the day after
her body was found. He determined that Stites died
around 3:00 a.m. on April 23rd. He also concluded that
the belt was the murder weapon and that Stites died
of asphyxiation by strangulation. Like Blakley,
Bayardo presumed Stites was sexually assaulted, took
vaginal swabs, and found sperm with both heads and
tails intact. He also took rectal swabs but found only

39a
sperm heads with no tails. He noted that her anus was
dilated with superficial lacerations. Dr. Bayardo
thought the presence of sperm in the anus was indicative of penile penetration, but noted that it may have
been attributed to seepage from the vagina. He concluded that Stites’s anal injuries occurred at or
around the time of death and therefore were not acts
of consensual sexual activity.
When Young and Sandifer processed the truck for
evidence, neither found fingerprints, blood, or semen
identifying the perpetrator. However, they and
Ranger L.T. Wardlow, the lead investigator on the
case, noted the driver’s seat position was reclined with
the seatbelt fastened as if someone was pulled out of
the seat while buckled in. Young, who stood six feet,
two inches, also noticed that when he sat in the reclined driver’s seat, he had a clear view out of the back
window in the rearview mirror. Based on this, they
concluded that someone who was six-foot-two or of
similar height must have driven the truck.
Five days after Stites’s body was found, a citizen
reported finding some items they believed were connected to Stites’s murder. The report, written by
Officer Scoggins, stated that the citizen reported that
a part of a shirt, two condoms, and part of a knife handle were found. At trial, Ranger Wardlow testified
that he did not have personal knowledge about who
brought in the condoms. However, he testified that he
saw the condoms a short while after they were
brought in and confirmed that the condoms “appeared
to be old and cracked and worn out.” These items were
not tested for DNA evidence before trial.
Police investigated Stites’s murder over the
course of eleven months. During that time, police

40a
obtained twenty-eight biological samples from
twenty-eight males. None of them matched the biological evidence found in and on Stites’s body. After
following several theories and lines of investigation—
ruling out people Stites knew personally—police
learned information about Reed that could make him
a suspect. Reed was about the same height as Young,
lived near the Bastrop High School, and frequently
walked the area late at night. Police learned from DPS
that Reed had an existing DNA sample on file and had
DPS test it against the vaginal swabs taken by
Blakley. Two different DNA tests of the samples concluded that Reed could not be excluded as a donor of
the semen. Looking for more conclusive results, DPS
forwarded the samples to LabCorp for additional testing. Again, the results could not exclude Reed and
determined that the samples matched Reed’s genetic
profile. The LabCorp technician, as well as Blakley,
testified that intact sperm did not live more than
twenty-four hours after commission of a vaginal-sexual assault and sperm breaks down faster in the rectal
area than in the vaginal vault.
The jury found Reed guilty of capital murder and
assessed a sentence of death.
B. Post–Conviction Procedural History
This case has an extensive post-conviction litigation history. After trial, Reed filed a direct appeal
alleging insufficient evidence supporting his capital
murder conviction which we denied based on the
strength of the evidence presented at trial.2 Our judgment relied on Reed’s DNA found in and on Stites’s
Reed v. State, No. AP–73,135 (Tex. Crim. App. Dec. 6, 2000)
(not designated for publication).
2

41a
body, expert testimony regarding how long sperm
heads can survive in the vagina and anus, and expert
testimony that the sexual assault occurred at or near
the time of death.
Before this Court affirmed the conviction, Reed
filed an initial application for writ of habeas corpus
under Code of Criminal Procedure Article 11.071.
Reed also filed a supplemental claim while the initial
writ was pending. We denied his initial application
and characterized the supplemental claim as a subsequent application and dismissed it.3 Reed filed a
federal habeas application which was stayed and held
in abeyance until Reed exhausted all available state
remedies.4 Then in March 2005, Reed filed another
subsequent application that this Court ultimately denied in part and dismissed in part.5 Between 2007 and
2009, Reed filed three more subsequent applications
that were dismissed as abusive for failing to satisfy
Article 11.071, § 5.6
In August 2009, the federal court lifted the stay
on Reed’s federal writ application. In 2012, the federal
district court judge denied Reed’s application.7 Reed
then filed motions to alter and amend the court’s judgment and for leave to amend his petition and abate
Ex parte Reed, Nos. WR–50,961–01 & WR–50,961–02 (Tex.
Crim. App. Feb. 13, 2002) (not designated for publication)
3

4

Reed v. Stephens, 739 F.3d 753, 763 (5th Cir. 2014).

5

Ex parte Reed, 271 S.W.3d at 751.

Ex parte Reed, Nos. WR–50,961–04 & WR–50,961–05,
2009 WL 97260 (Tex. Crim. App. Jan. 14, 2009) (not designated
for publication); Ex parte Reed, No. 50–961–06, 2009 WL
1900364 (Tex. Crim. App. July 1, 2009) (not designated for publication).
6

7

Reed, 739 F.3d at 763.

42a
the proceeding. He asked “the district court to reopen
his case, vacate its prior judgment, grant him leave to
add an additional due process claim, and abate all further proceedings until he exhausted the due process
claim in state court.”8 The judge denied the motions.
And in January 2014, the Fifth Circuit denied a certificate of appealability, essentially affirming the
denial.9
C. Reed’s Request for Post–Conviction DNA
Testing
In April 2014, the State requested an execution
date be set. At a hearing held in July 2014, the trial
judge set the execution date for January 14, 2015. On
the day of the hearing, Reed filed his Chapter 64 motion requesting DNA testing of a large number of
items. In reviewing Reed’s pleadings, we note that
Reed has not clearly or consistently identified items
he seeks to test. At times, items discussed in the body
of a pleading are not reflected on an appended chart
purporting to be a comprehensive itemized list of the
extent of Reed’s motion. Consistent with the State’s
objections at the live evidentiary hearing, we note that
some items Reed evidently seeks to test were not specifically listed in Reed’s Chapter 64 motion or
addendum, yet were discussed by Reed’s expert witnesses at the hearing.
To group the items, we look to Reed’s addendum
to his latest proposed findings of fact and conclusions
of law and follow, but do not adopt, Reed’s categories
dividing the items he seeks to have tested: (1) items
recovered from Stites’s body or her clothing, (2) items
8

Id.

9

Id. at 790.

43a
found in or near Fennell’s truck, and (3) items found
near the victim-recovery scene. Because the live hearing testimony covered additional items that do not
neatly fall within Reed’s categories, we add an “other”
category. Out of an abundance of caution and because
the trial judge entered findings and conclusions regarding all the pleaded and unpleaded items in
denying DNA testing, we include them in this appeal.
1. Items recovered from Stites’s body or
her clothing:
• Pants
• Underwear
• Bra
• H.E.B. name tag
• White t-shirt
• Section of belt (no buckle)
• Section of belt (with buckle)
• Earring
• Right shoe
• Left shoe
• H.E.B. employee shirt
• Strands of hair from left sock, back of left leg,
and back
• White flakes
• Tape lifts from pubic area
• Vaginal and rectal swabs
The State and Reed agreed to have the last three
items listed tested outside of Chapter 64’s parameters, and the judge entered an agreed order to that
effect July 14, 2014. The record shows Reed

44a
abandoned his Chapter 64 testing request in regard to
these items.
2. In or near Fennell’s truck:
• H.E.B pen
• Knife and metal cover
• Metal box cutter
• Pack of Big Red gum
• Piece of green plastic cup
• Brown planner/organizer
• Single hair from planner/organizer
• White paper napkin
• Carbon copies of checks
• Gas emergency book
• Latent fingerprint from passenger door
• Automatic teller receipt
• Bridal shop receipt
• Walmart receipt
• Business card
• Plastic bag
• Blue nylon rope
• Brown rope
3. Victim-recovery scene:
• Plastic bags placed over Stites’s hands during
investigation
• Used condoms
• Two Busch beer cans
• Swabs/samples taken from mouths of two Busch
beer cans

45a
• Extract samples from blue condom stored in coin
envelope
• Piece of shirt
• Piece of knife
4. Other:
• Knee brace
• Back brace
• Green blanket
• White paper used under Stites’s body during autopsy
B. Live Hearing Testimony
Reed’s Chapter 64 motion largely hinges on the
newly available analysis of touch DNA. Touch DNA is
based on Locard’s Principle that when a person
touches something the person’s epithelial, or skin,
cells transfer to that object and then may be subjected
to DNA analysis. But Reed also argued that items previously and successfully analyzed for DNA should be
retested and subjected to more advanced and sensitive
DNA analyses.
John Paolucci, a former detective and crime scene
expert specializing in DNA cases, testified that
scratches found on Stites’s back and the back of her
hand suggested that she was dragged. Paolucci expected that the person who dragged Stites would most
likely deposit skin cells on the part of Stites’s body or
clothing the perpetrator grabbed to pull her body. Because the belt had a similar pattern to the markings
found on Stites’s throat and was most likely used to
strangle Stites with pressure, Paolucci opined there
would likely be a significant deposit of the perpetrator’s skin cells on it. As to the items found in Fennell’s

46a
truck, and presumably the items found outside, Paolucci acknowledged he would presume that Fennell’s
DNA will be deposited on certain areas. Paolucci also
noted that DNA testing would confirm or contradict
accounts given by an alternate suspect. The commingling of a large number of the items Reed seeks to
have tested in a box together would not, in Paolucci’s
opinion, make that evidence unsuitable for testing. In
his opinion, even though the items are contaminated,
Paolucci stated that if DNA profiles from contaminated and not contaminated items match, “you can
start putting together evidence of an alternate suspect.”
Deanna Lankord, an associate laboratory director
at Cellmark Forensics, similarly testified that she
would look for touch DNA, in addition to performing a
more traditional DNA analysis of previously tested biological evidence using newer, more advanced
techniques. She testified that, in her experience, she
has tested pieces of evidence that have been commingled in a single container. And in her experience, her
laboratory has “had many cases where [it] ... obtained
probative results” even when evidence is stored in this
manner. Based on the exchange principle, Lankford
opined that all of the specified items contain some
amount of DNA material. Without testing the items,
however, she could not say for sure or give an opinion
on the likelihood of discovering DNA to the extent of
producing a DNA profile, or a person’s identity based
on testing deposited DNA.
Lankford conceded that there could be infinite
possibilities of DNA combinations on the items stored
in the box of evidence maintained by the Bastrop
Clerk’s Office because many people may have touched

47a
the items. Lankford acknowledged compounded possibilities because, under the exchange principle, those
handling the items could deposit others’ DNA. Despite
a conceivably infinite mix of DNA combinations,
Lankford testified that properly handled and stored
evidence could act as a control of sorts. She explained
it thus:
[I]f we were to obtain DNA—DNA information
from an item from the box and it happened to
match an item that we tested from a different
location stored in, say, a more appropriate
manner, we can compare the two and see if—
I mean, if they match, then there’s a different
scenario there.
***
Well, that it wouldn’t be a contaminant from
someone handling the evidence, say a jury
member or something.
Lankford testified similarly while addressing the potential of DNA being transferred from one item to
another. She again focused on redundancy.
If you think of an assailant handling certain
areas of clothing or shoes or socks and you obtain DNA from those areas and they match
and you test other areas of clothing maybe
where an assailant wouldn’t necessarily be
grabbing or touching someone so they don’t
match those other areas, then you can kind of
put two and two together.
Yet in a mixed sample when a major and minor contributor could not be identified, Lankford noted that
there would be no way to separate the particular alleles discovered in subsequent testing and associate

48a
them to a particular profile without reference samples
from the different parties who potentially touched the
items. And without these reference samples, the DNA
test results would remain inconclusive.
The State presented testimony from three witnesses: Sergeant Gerald Clough, an Office of the
Attorney General investigator; Etta Wiley, a Bastop
County Deputy Clerk; and Lisa Tanner, the lead trial
prosecutor at Reed’s trial. According to his testimony,
Clough investigated the existence of certain items introduced in Reed’s trial and included in Reed’s
Chapter 64 motion. He discovered a number of items
in two unsealed boxes maintained by the Bastrop
County Clerk’s office. The record contains the photos
Clough took depicting how the items were stored.
With the exception of one bagged item, the photos
show that the evidence was simply placed in the box
and was not separated into individual bags. Stites’s
clothing, a planner, both pieces of the belt, and videotapes, among other pieces of evidence, are clearly
visible. The items are distinctly commingled and
touching one another.
Bastrop County Deputy Clerk Etta Wiley testified
that she is responsible for the exhibit closet for criminal matters. Wiley created an inventory list at the
State’s behest and testified about a number of paper
trial exhibits maintained in a single manilla envelope
at the clerk’s office; specifically, the bridal shop receipt,
a
photographer’s
receipt,
Reed’s
acknowledgment of statutory warnings, carbon copies
of Fennell’s checks, a utilities receipt, and Walmart
receipts. Wiley testified that each trial exhibit was not
individually wrapped and was commingled with the
others in the manilla envelope. According to Wiley,

49a
the exhibits were maintained under lock and key, and
the evidence was not substituted, replaced, tampered
with, or materially altered while in her care.
Lisa Tanner, the lead prosecutor at Reed’s trial,
testified that, after the forensic testing was completed
before trial, a number of people handled the evidence
at trial without gloves. Not only did she not use gloves
at trial, but neither did the defense attorneys, court
personnel, the court reporter, and presumably the district clerk. The list potentially included the twelve
jurors. The admitted evidence was sent back with the
jury to deliberate, and Tanner testified that she did
not know if gloves were available for the jurors. According to Tanner, the evidence was not separately
packaged when it was available to the jury.
After holding a live evidentiary hearing, the trial
judge denied Reed’s DNA testing request and issued
findings of fact and conclusions of law. This direct appeal followed.10 After remand, the judge made
supplemental findings of fact and conclusions of law.
II. Analysis
A. Chapter 64’s Requirements
When Reed filed his motion for Chapter 64 DNA
testing, Texas Code of Criminal Procedure Article
64.01 stated that “[a] convicted person may submit to
the convicting court a motion for forensic DNA testing
of evidence containing biological material.”11 At that
time, to be eligible for post-conviction DNA testing of
See TEX. CODE CRIM. PROC. art. 64.05 (West Supp. 2016)
(providing appeals to this Court when a person is sentenced to
death).
10

11

TEX. CODE CRIM. PROC. art. 64.01(a–1) (West Supp. 2014).

50a
certain evidence, the evidence must have been secured
in relation to the charged offense and been in the
State’s possession during the trial, “but: (1) was not
previously subjected to DNA testing; or (2) although
previously subjected to DNA testing, can be subjected
to testing with newer techniques that provide a reasonable likelihood of results that are more accurate
and probative than the results of the previous test.”12
Then-existing Article 64.03 provided that a court
may order DNA testing under Chapter 64 only if it
finds that:
(1) the evidence still exists and is in a condition
making DNA testing possible;
(2) the evidence has been subjected to a chain of
custody sufficient to establish that it has not been
substituted, tampered with, replaced, or altered
in any material respect;
(3) identity was or is an issue in the case;
(4) the convicted person establishes by a preponderance of the evidence that the person would not
have been convicted if exculpatory results has
been obtained through DNA testing; and
(5) the convicted person established by a preponderance of the evidence that the request for the
proposed DNA testing is not made to unreasonably delay the execution of sentence or
administration of justice.13

12

Id. art. 64.01(b).

13

Id. art. 64.03.

51a
Effective September 1, 2015, the Legislature amended
Articles 64.01(a–1) and 64.03.14 Article 64.01(a–1)
now provides that a convicted person may seek forensic DNA testing of evidence “that has a reasonable
likelihood of containing biological material.”15 The
amendment also added a requirement to Article 64.03:
the judge must find, in addition to the above requirements, that “there is a reasonable likelihood that the
evidence contains biological material suitable for
DNA testing.”16
B. Standard of Review
When reviewing a judge’s ruling on a Chapter 64
motion, we use the familiar bifurcated standard of review articulated in Guzman v. State: we give almost
total deference to the judge’s resolution of historical
fact issues supported by the record and applicationsof-law-to-fact issues turning on witness credibility
and demeanor.17 But we review de novo all other application-of-law-to-fact questions.18
C. Findings of Fact and Conclusions of Law
There is no dispute that the items Reed seeks to
have tested exist and are in a condition making DNA
testing possible and that identity was or is an issue in
this case. The judge accordingly concluded that these
Acts 2015, 84th Leg., ch. 70 (S.B. 487), § 1 (effective Sept.
1, 2015).
14

15

TEX. CODE CRIM. PROC. art. 64.01(a–1) (West Supp. 2016).

16

Id. art. 64.03(a)(1)(B).

Rivera v. State, 89 S.W.3d 55, 59 (Tex. Crim. App. 2002)
(referring to Guzman v. State, 955 S.W.2d 85,89 (Tex. Crim. App.
1997)); Holberg v. State, 425 S.W.3d 282, 284–85 (Tex. Crim.
App. 2014).
17

18

Id.

52a
requirements were satisfied.19 Further, the record and
the parties’ briefing also indicate that there is no dispute whether Reed satisfied Article 64.01(b)’s
requirement that the items were either not tested for
DNA or could be tested with newer technologies
providing more accurate and probative results. However, the parties took differing positions on the
balance of Article 64.03’s requirements. We review the
judge’s remaining findings and conclusions in turn.
1. Is the evidence subject to chain of
custody sufficient to establish that individual pieces of evidence have not
been substituted, tampered with, replaced, or altered in any material
respect?
The judge concluded that a significant number of
the items do not satisfy this standard. The judge concluded that the following items connected to Stites’s
body or clothing have been contaminated, tampered
with, or altered:
• Pants
• Underwear
• Socks
• Left shoe
• Right shoe
• Bra
• White t-shirt
• Section of belt (no buckle)
• Section of belt (with buckle)

19

See TEX. CODE CRIM. PROC. art. 64.03(a)(1)(A)(i), (1)(C).

53a
• Earring
• H.E.B. employee shirt
• H.E.B. name tag
The judge concluded the following items recovered
from or near Fennell’s truck were contaminated, tampered with, or altered:
• Knife and metal cover
• Pieces of plastic cup
• Brown planner
• Bridal shop receipt
• Portrait receipt
• Carbon copies of checks
• Walmart receipt
Lastly, the judge’s findings extended to the following
items in the “other” category:
• Back brace
• Knee brace
Reed’s argument for testing these items under
Chapter 64 is the advancement in touch DNA, a relatively new DNA technique that can develop a DNA
profile from epithelial cells left by those handling the
item. The judge based his conclusion on the evidence
presented at the evidentiary hearing and, as a result,
focused on the testimony pertaining to the number of
people who handled (or potentially handled) the items
depositing DNA on them and the likelihood that deposited DNA itself could be transferred to other items.
The judge found credible Tanner’s testimony that the
above items were handled by ungloved attorneys,
court personnel, and possibly the jurors. The judge
also found credible Clough’s and Wiley’s testimony

54a
establishing that the evidence was not separately
packaged, but instead commingled in a common repository. The judge credited Paolucci’s testimony on
cross-examination that there is “a good chance that
[the items in the clerk’s boxes are] contaminated evidence.” The judge also credited Lankford’s response to
the State’s hypothetical that handling evidence without gloves would tamper with the evidence. According
to the judge, both assertions by Reed’s witnesses were
not contradicted.
We find the record supports the judge’s findings
and the conclusion on this requirement. The requirement at issue here necessitates a finding that the
evidence “has been subjected to a chain of custody sufficient to establish that it has not been substituted,
tampered with, replaced, or altered in any material
respect.”20 Clough’s and Wiley’s combined testimony
established that the items the judge deemed contaminated, tampered with, or altered were trial exhibits
maintained by the Bastrop County Clerk’s Office and
not individually packaged. And based on Tanner’s
credited testimony, many people handled those exhibits without gloves. Reed’s own witnesses conceded
that the manner of the trial exhibits’ handling contaminated or tampered with the evidence. The
cumulative weight of the State’s and Reed’s witnesses
demonstrates that the manner in which the evidence
was handled and stored casts doubt on the evidence’s
integrity, especially for the specific testing Reed
seeks. Reed’s experts’ testimony on a suggested approach to mitigate the effect of the evidence’s
alterations does not undermine the judge’s

20

Id. art. 64.03(a)(1)(A)(ii).

55a
determination that certain items did not satisfy Article 64.03(a)(1)(ii).
The judge concluded that the remaining items
that were not similarly handled and stored have been
subject to a chain of custody sufficient to establish
that they have not been substituted, tampered with,
replaced, or altered in any material respect.
2. Does the evidence contain biological
material suitable for DNA testing?
The judge found that there was not a reasonable
likelihood that any of the items Reed sought tested
listed above (and that were not withdrawn from his
motion at the hearing) contain biological material
suitable for DNA testing. This conclusion focused on
the limitations of Paolucci’s and Lankford’s testimony
about certain items.
The judge excluded all paper items under this criterion because Paolucci testified that, in his
experience, he “didn’t have much success in testing
paper as a substrate.” The judge further found that
Paolucci necessarily did not know whether the white
paper napkin, green blanket, driver’s seat tape lift,
and white paper sheet placed under Stites contained
biological material because he testified that he would
want to examine those items to determine whether
they contained biological material. On the likelihood
that touch DNA was present on the items, the judge
found that Paolucci could not “say for sure where—
where these items were touched.” And specifically, the
judge found that Paolucci admitted that he could not
say that the perpetrator touched the white paper napkin, H.E.B. pen, knife with metal cover, or the brown
planner. The judge further found that Paolucci did not
testify whether biological material might be found on

56a
any of the paper items, the latent fingerprint, plastic
bag, blue rope, brown rope, pubic tape lift, piece of
shirt, piece of knife, extracts from condom, and extracts from beer cans. The judge also found that
Paolucci could not “‘promise anybody that there’s going to be DNA’ on any particular item.”
The judge likewise found limitations on Lankford’s certainty whether any specific item was
handled. The judge found that Lankford testified similarly to Paolucci, in that she would examine the green
blanket, white paper sheet, and the driver’s seat tape
lift for trace evidence; an implicit opinion that she did
not know whether those items in fact contain biological material. As with Paolucci’s testimony, the judge
found that Lankford did not discuss whether biological material would be found on certain items,
specifically: any of the paper items; the earring; plastic bag; blue rope; brown rope; piece of shirt; piece of
knife; extracts from condoms; extracts from beer cans;
back brace; and knee brace. Regarding the presence of
touch-DNA, the judge found that Lankford “admitted
that she did not know whether any particular item
was handled or that there is biological material in the
supposedly handled item.” Nor could Lankford “‘say
for sure’ that DNA will be detected on the items for
which [Reed] requests testing.”
After our own independent review of the hearing
testimony, we find many of the judge’s findings unsupported by the record and therefore we will not
afford near total deference. Many of the judge’s findings improperly tie together the separate inquires of
whether the items are reasonably likely to contain biological material suitable for DNA testing with
whether testing would produce a DNA profile. The

57a
statutory criterion is concerned only with the former.
Both Paolucci’s and Lankford’s testimony centered on
the exchange principle that maintains skin cells and
DNA deposits remain on an item every time it is
touched. Both witnesses testified to the ubiquity of
touch DNA and both testified that, based on the exchange principle, they were one-hundred percent
certain that certain items contained biological material. During Paolucci’s testimony, the judge clearly
understood the concept in this exchange on cross-examination:
[State]: But you can tell with 100 percent certainty that there’s DNA on this material? Yes
or no? Yes—yes or no?
[Paolucci]: It’s such a—
[Paolucci]: That would be misleading to answer
that yes or no, Judge.
THE COURT: Well, not really because there’s going to be DNA on everything.
[Paolucci]: There is DNA on everything.
THE COURT: It may or may not have anything to
do with this case, but there’s DNA. That’s basically what you’re saying then?
[Paolucci]: Yes, I mean it’s so—
THE COURT: Okay—
[Paolucci]:—minuscule that, you know, we might
not have the—we might not have the ability,
the sensitivity of testing at this point but, you
know, is there [sic] DNA present.
In her affidavit, Lankford expressed her opinion
that, based on the exchange principle and to a reasonable degree of scientific certainty, the following items

58a
(not waived at the hearing) contain biological material: the two pieces of the belt, pants, white t-shirt,
condom, H.E.B. name tag, latent fingerprint found on
Fennell’s truck, white paper napkin, H.E.B. pen, and
carbon copies of checks. Lankford conceded, however,
that only through testing could one determine
whether a DNA profile could be obtained. At the hearing she expanded the list of items she believed
contained biological material to include underwear,
socks, shoes, bra, earring, H.E.B. shirt, knife with the
metal cover, the pieces of the plastic cup, planner, cigarette lighter, beer cans, package of gum, and metal
box cutter. Paolucci’s opinions were consistent with
Lankford’s. The State did not impeach Paolucci’s and
Lankford’s applications of Locard’s Principle supporting their opinions. Nor did the judge enter any
adverse credibility finding on their testimony.
We note, like the judge did in his findings and conclusions, that the “reasonable likelihood” statutory
standard became effective after Reed filed his Chapter
64 motion. When Reed filed his motion, Article
64.01(a-1) permitted a convicted person to request
“DNA testing of evidence containing biological material.”21 We held that “[a] literal reading of [that]
statute unequivocally mandates that all evidence to
be tested must first be proven to contain biological material.”22 We further held that movants bear the
burden to “prove biological material exists and not

21

TEX. CODE CRIM. PROC. art. 64.01(a–1) (West Supp. 2014).

Swearingen v. State, 424 S.W.3d 32, 37 (Tex. Crim. App.
2014) (quoting Swearingen v. State, 303 S.W.3d 728, 732 (Tex.
Crim. App. 2010)).
22

59a
that it is merely probable.”23 Current Articles 64.01(a1)’s and 64.03(a)1)(B)’s new language requiring
merely a reasonable likelihood that the evidence contains biological material is decidedly less onerous.
Nonetheless, the judge found that Reed could not satisfy either standard when he included in his findings
that his conclusion on this criterion would stand applying either the 2013 or 2015 versions of Chapter 64.
Because the record does not fully support the
judge’s finding on whether Reed satisfied his burden
on the presence of biological material, we cannot
adopt the finding in its entirety. We do, however, find
record support for the judge’s finding that Reed’s witnesses did not address whether a number of items are
reasonably likely to contain biological material.
Therefore, Reed failed to satisfy his burden as to those
items. After reviewing the witnesses’ testimony on
what they did and did not conclude contained biological material, we find that Reed proved that either
biological material exists or there is a reasonable likelihood that it exists on the following items:
• Both pieces of the belt
• Pants
• White t-shirt
• Condoms
• H.E.B. name tag
• Fingerprint found on Fennell’s truck
• White paper napkin
• H.E.B. pen

23

285.

Id. at 38 (emphasis in original); Holberg, 425 S.W.3d at

60a
• Carbon copies of checks
• Underwear
• Socks
• Right and left shoes
• Bra
• Earring
• H.E.B. shirt
• Knife with the metal cover
• Pieces of the plastic cup
• Planner
• Cigarette lighter
• Beer cans
• Package of gum
• Metal box cutter
3. Has Reed established by a preponderance of the evidence that he would
not have been convicted if exculpatory results were obtained through
DNA testing?
Addressing all of the items Reed moved to have
tested, the judge concluded that Reed failed to prove
by a preponderance of the evidence that he would not
have been convicted in light of exculpatory results
from DNA testing of all the evidence he requested to
be tested. The judge found that “[t]he State’s case on
guilt-innocence was strong.” The judge found that the
evidence at trial demonstrated Reed’s “presence” and
that the sexual assault occurred contemporaneously
with the murder. The judge highlighted two additional aspects of the evidence: Reed frequented the
area of Stites’s disappearance and Reed matched the

61a
height of someone who would have fit the adjusted
seat in the truck Stites was driving the night of her
disappearance. Because many of the items Reed seeks
to have tested were already before the jury and the
jury knew they did not match Reed, the judge found
that the items’ potential exculpatory nature was already known to the jury. Further, the judge found that
“none of the evidence was so integral to the State’s
case that the jury would have acquitted despite knowing that [Reed’s] DNA was not on the item.” In
concluding that Reed failed to meet his burden, the
judge found that the evidence’s handling undermines
its exculpatory value and “would muddy the waters,
not prove by a preponderance that he would have been
acquitted.”
Before addressing the judge’s findings on this criterion, we pause to summarize what evidence remains
after our conclusions on the previous criteria thus far.
Doing so marshals the evidence we must analyze to
determine whether Reed has carried his burden that
he would not have been convicted if exculpatory results were obtained through DNA testing. When we
remove the items that are contaminated, tampered
with, or altered in a material way from the items that
we conclude contain biological evidence, we are left
with the following items:
• Condoms
• Fingerprint found on Fennell’s truck
• White paper napkin
• H.E.B. pen
• Cigarette lighter
• Beer cans
• Package of gum

62a
• Metal box cutter
In his brief, Reed asserts that the judge erred in
concluding that he did not satisfy his burden in this
respect because the judge misapplied the law in two
critical ways. First, the judge incorrectly weighed the
strength of the State’s case at trial and assumed the
correctness of the State’s theory at trial. Reed claims
the judge failed to consider subsequent evidence submitted with his motion that disproves the State’s
timing theory. Second, citing this Court’s opinion in
Routier v. State,24 Reed argues that the judge improperly narrowed the definition of “exculpatory result” by
failing to presume results implicating an alternative
known suspect and the possibility of finding the same
third party DNA on separate items. Reed argues that
he satisfied his burden that the jury would not have
convicted him had the judge applied the correct legal
standard and the jury was informed that Reed’s DNA
was not present on these items. The judge further
erred, Reed asserts, by not considering the effect on
the conviction had the jury been informed that a redundant DNA profile of a third party was found on
other items that were handled by Stites’s killer or particular items already tested.
To be entitled to Chapter 64 DNA testing of these
items, Reed must show by a preponderance of the evidence—a greater than 50% likelihood—that he would
not have been convicted if the proposed testing’s exculpatory results were available at the time of his
trial.25 “For purposes of this inquiry we must assume
24

273 S.W.3d 241, 259–60 (Tex. Crim. App. 2008).

TEX. CODE CRIM. PROC. art. 64.03(a)(2)(A) (West Supp.
2014); Holberg, 425 S.W.3d at 286–87.
25

63a
(without deciding, of course) that the results of all of
the post-conviction DNA testing to which [Reed] is entitled under Article 64.01(b) would prove favorable to
him.”26 “Exculpatory results” means only results excluding the convicted person as the donor of this
material.27 Reed’s brief on this point claims post-trial
factual developments undermine the State’s theory at
trial, but our review in this context does not consider
post-trial factual developments. Instead, we limit our
review to whether exculpatory results “would alter
the landscape if added to the mix of evidence that was
available at the time of trial.”28
We conclude that Reed fails to prove by a preponderance of the evidence that, in light of presumed
exculpatory DNA results, he would not have been convicted. Both in the trial court and on appeal, Reed fails
to articulate why the presumed exculpatory results of
the items he wanted tested would result in the jury
finding him not guilty, as opposed to merely “muddying the waters” as the trial judge concluded.29
Assuming that the exculpatory results include finding
the same DNA profile on the condoms, beer cans, fingerprint found on Fennell’s truck, white paper
napkin, H.E.B. pen, cigarette lighter, package of gum,
and metal box cutter, Reed cannot establish that an
exculpatory redundant profile would have, by a preponderance of the evidence, resulted in his acquittal.
Our holding that Reed cannot meet his burden by
26

Routier, 273 S.W.3d at 257.

27

Holberg, 425 S.W.3d at 287.

Id. at 285; see Kutzner v. State, 75 S.W.3d 427, 439 (Tex.
Crim. App. 2002).
28

See Ex parte Gutierrez, 337 S.W.3d 883, 901 (Tex. Crim.
App. 2011).
29

64a
aggregating the exculpatory results naturally includes a holding that Reed’s showing fails as to each
singular item.
First, Reed cannot establish that the condoms,
beer cans, and the white paper napkin are connected
to Stites’s capital murder. According to the trial testimony, the two beer cans were collected by the latentfingerprint examiner who found them located across
the road from where Stites was discovered. Another
member of the crime-scene examination team testified
that finding beer cans on the side of a country road is
not uncommon. Other than an effort to be thorough in
collecting items relatively near the crime scene, there
was nothing in particular that led law enforcement to
believe that the beer cans were connected to the crime
scene.
There was sparse trial testimony concerning the
circumstances of the condoms’ recovery. Ranger
Wardlow testified that condoms were given to the
sheriff’s office, although he did not recall exactly who
turned them in. The trial record makes no mention
where the condoms were discovered and by whom.
Even assuming they were discovered near where
Stites’s body was found, Ranger Wardlow testified
that the condoms appeared to be old, cracked, and
worn out, suggesting they had long predated Stites’s
death. Reed’s own expert at the Chapter 64 hearing
testified similarly concerning the condoms’ condition.
Although the trial testimony indicates that the
white paper napkin was collected from the ground
near Fennell’s truck parked at the high school, there
is no testimony to suggest that the napkin came from
Fennell’s truck. While the statute requires that we
presume exculpatory results of the putative testing, it

65a
does not require us to presume an item’s relevance to
the question of the offender’s identity. Reed provides
little more than supposition to suggest that, because
it was found on the ground outside of Fennell’s truck,
the napkin was connected to the murder. It is an ever
bigger stretch to say that testing the napkin may identify Stites’s murderer. The napkin was mentioned
only twice over the course of the thirteen-volume record on guilt-innocence, and then merely in a list of
items collected. Like the beer cans and condoms, Reed
cannot demonstrate the relevance of the napkin,
much less that its testing and the attending exculpatory result injects sufficient doubt into the evidentiary
mix that a jury would acquit.
The items collected from Fennell’s truck are only
incrementally more likely to be connected to Stites’s
murder solely by virtue of the State’s theory at trial
that Reed assaulted Stites in the truck, dumped her
body in the woods, and parked the truck in the high
school parking lot. Yet Reed fails to demonstrate that
the alternative murderer would have necessarily left
the fingerprint found on Fennell’s truck and handled
the H.E.B. pen, cigarette lighter, package of gum, and
metal box cutter. Other than their proximity to the
murder’s commission, the record fails to establish why
these items are relevant to establishing Stites’s murderer. Reed’s experts recommended that these items
be tested simply because a perpetrator could have
touched them. We fail to see how even a presumed redundant profile on these items would have raised
doubt sufficient enough to cause the jury to acquit
Reed.
Second, Reed’s counsel suggested his trial was “a
case of competing stories,” but he fails to explain why

66a
exculpatory results makes his story at trial clearly
more convincing than the State’s “story.” At trial,
Reed raised a two-pronged defensive theory: First,
Reed pointed to the possibility that another person,
particularly Fennell or David Lawhon, committed the
murder. Second, Reed had a secret romantic relationship with Stites and his semen was present as a result
of consensual intercourse.
The State’s theory at trial was that Reed’s DNA
profile found in the semen deposited in Stites’s vagina
and rectum and in the saliva on her breast clearly indicated that Reed had sex with Stites. And based on
the injuries she suffered both pre- and post-mortem,
the State argued that the sexual encounter was not
consensual. Dr. Bayardo, the medical examiner, estimated that Stites died at 3:00 a.m., give or take a few
hours. Because he observed fully intact sperm taken
from the vaginal swabs, Dr. Bayardo concluded that
the sperm was deposited “quite recently.” Crime-scene
investigator Karen Blakely testified that, based on a
published study, sperm will remain intact inside the
vaginal tract for as long as twenty-six hours. The medical examiner also found several sperm heads without
visible tails from the rectal swabs and testified that
sperm breaks down much faster in the rectum than it
does in the vagina. During the sexual-assault exam,
Dr. Bayardo noticed that Stites’s anus was dilated and
superficially lacerated. Dr. Bayardo concluded that
the anal injury occurred at or near the time of her
death. From the witnesses’ testimony, the State argued to the jury that “whoever raped Stacey [Stites]
also killed her.”
The presumed redundant exculpatory results do
nothing to undermine the State’s case or alter the

67a
evidentiary landscape at Reed’s trial. The results do
not affect the State’s time line supporting its theory
tying the murder to the rape, the argument the jury
ultimately believed. The presumed redundant DNA
profile exculpatory results also do not support Reed’s
consensual-relationship defense that the jury disregarded. It is on this latter point, among others, that
Reed’s case differs from that in Ex parte Routier, a
case he argues the trial judge misapplied.
In Ex parte Routier, we examined each piece of evidence to determine whether each piece individually
satisfied Chapter 64’s requirements and, as a result,
limited the items subjected to testing to a facial hair,
a pubic hair, blood on a tube sock, a night shirt, and a
blood sample on the door to the garage. We then set
out to determine whether Routier could prove that she
would not have been convicted had the jury known of
the presumptively favorable test results.30 At trial,
Routier denied stabbing her two sons. She contended
that “[s]he awoke to discover a stranger departing
through the kitchen and utility room and out through
the garage, leaving a bloody butcher knife from the
kitchen behind on the utility room floor.”31 “The State
presented circumstantial evidence suggesting that
there was no intruder, that the crime scene had been
‘staged,’ that [Routier] had inflicted the wounds on
herself, and that she had some pecuniary motive to
murder her children.”32 Assuming a redundant DNA
profile from a single unknown contributor on these
items, we held that such results substantially
30

Routier, 273 S.W.3d at 256–59.

31

Id. at 244.

32

Id. at 244–45.

68a
corroborated Routier’s account by placing an unknown assailant at the scene who then fled the house
through the garage.33 We held this corroboration
“would have a strong tendency to engender a reasonable doubt in an average juror’s mind” and Routier
was entitled to post-DNA testing.34
The circumstances surrounding the items subjected to post-conviction testing in Routier differ from
those Reed seeks to test. The items Routier wanted
tested were those that corroborated her defensive theory at trial. Second, and relatedly, those items,
together with the presumptive redundant DNA profile, were significant because they were associated
with the crime scene through Routier’s own trial testimony and were recovered (with the exception of the
tube sock) in her house, a place where only a reasonably limited number of hair and blood DNA
contributors would be found. The same cannot be said
of the remaining items in this case potentially subject
to testing.
The presumptively exculpatory results in this
case are decidedly weaker than in Routier. The presumptive redundant DNA profile does not sufficiently
alter the evidentiary mix to a degree that would have
a strong tendency to engender a reasonable doubt in
an average juror’s mind. The exculpatory results, even
allowing a presumption that the redundant profile
would be Fennell’s, do not corroborate Reed’s defensive theory that a consensual relationship existed
between Stites and Reed nor do they strengthen the
argument that Fennell murdered Stites. Again, even
33

Id. at 257–58.

34

Id. at 258, 259–60.

69a
allowing an overly expansive presumption that the exculpatory results would come back to Fennell, the jury
would most likely not be surprised to learn that Fennell’s profile was found on his own truck or on items
found in his truck. And if we presume Fennell’s DNA
profile was found on the extracts taken from the condoms and beer cans, in light of their uncertain
provenance or connection to the crime scene, we cannot say the jury would have found sufficient doubt
that it would have acquitted Reed.
Moreover, any presumptive exculpatory results,
including evidence of a redundant DNA profile, are
relatively weak evidence because of the specific biological material Reed seeks to test. Reed’s experts
definitely opined that all of the items Reed identified
have biological material because epithelial cells are
ubiquitous on handled materials. According to the
hearing testimony, testing technology has advanced to
the degree that a small number of skin cells may yield
a DNA profile. But as Reed’s DNA experts explained
the exchange principle, there is an uncertain connection between the DNA profile identified from the
epithelial cells and the person who deposited them.
Just as a person may deposit his own epithelial cells,
he may deposit another’s if those cells were exchanged
to him by touching an item another has touched. So
the exchange principle may support an equally persuasive argument that the DNA profile discovered
from an epithelial cell was not deposited by the same
person associated with the particular DNA profile.35
Cf. Swearingen, 424 S.W.3d at 38–39 (holding that discovering another’s DNA under the victim’s fingernails would not
factually exclude Swearingen in light of the many ways another’s
DNA could have ended up there).
35

70a
And as with all DNA testing generally, touch DNA
analysis cannot determine when an epithelial cell was
deposited. So in addition to being unable to definitively show who left the epithelial cell, it is unable to
show when it was deposited. Reed’s experts contradict
his argument that touch DNA would prove the perpetrator’s identity.
4. Has Reed established by a preponderance of the evidence that his request
for DNA testing is not made to unreasonably delay the execution of his
sentence or administration of justice?
The judge concluded that Reed failed to meet his
burden on delay. In support of his conclusion, the
judge found, among other things: (1) Reed failed to
provide time estimates for the DNA testing he seeks;
(2) Reed’s filing his Chapter 64 motion on the day the
State sought an execution date was a tactic designed
to delay setting an execution date; (3) Reed had earlier
opportunities to request Chapter 64 testing throughout his state and federal post-conviction litigation; (4)
Reed initiated informal DNA-testing requests with
the State only after the Fifth Circuit affirmed the district court’s denial of his petition for habeas corpus,
leaving little chance for future relief; (5) Reed has a
history of filing untimely requests for testing in federal court, and this request is a continuation of this
behavior; (6) Reed’s claim that his request was delayed because he did not know of some evidence’s
existence until reading the State’s response is not
credible; and (7) Reed waited more than four months
to obtain a subpoena for his own reference sample for

71a
purposes of testing certain items the State and Reed
agreed to test outside of Chapter 64.
Although Article 64.03(a)(2)(B) does not contain
set criteria a court must consider in deciding whether
a movant satisfied his burden that his request is not
made to unreasonably delay a sentence’s execution,
various opinions flesh out the inquiry by considering
the circumstances surrounding the request. Those circumstances may include the promptness of the
request, the temporal proximity between the request
and the sentence’s execution, or the ability to request
the testing earlier.36 However, individual cases in this
area turn on the discrete facts they presented and
they offer no definitive criteria for answering this inherently fact-specific and subjective inquiry.
We hold that Reed failed to establish that his request is not made to unreasonably delay the execution
of his sentence or the administration of justice. Reed’s
untimely request to test a significant number of items,
including some items the State has agreed to test and
others whose relevance to the crime are unknown,
supports the conclusion that this motion was intended
to delay his impending execution date. As chronicled
earlier in this opinion, Reed engaged and continues to
engage in protracted litigation since his conviction
was affirmed in 2000. In 2002, this Court denied

See, e.g., Swearingen, 303 S.W.3d at 736 (noting that movant could have requesting testing of materials earlier); Thacker
v. State, 177 S.W.3d 926, 927 (Tex. Crim. App. 2005) (movant
failed to satisfy his burden when he waited over fours years to
file his motion less than a month before his execution); State v.
Patrick, 86 S.W.3d 592, 598 (Tex. Crim. App. 2002) (Hervey, J.,
concurring).
36

72a
Reed’s initial application for habeas corpus. 37 We dismissed as abusive under Texas Code of Criminal
Procedure Article 11.071, § 5 the other five applications Reed filed over the next seven years.38 In our
2009 opinion dismissing Reed’s third and fourth subsequent applications, we noted that Reed has taken a
“piecemeal approach” in his post-conviction litigation.39 Reed also sought habeas relief in the federal
courts, but his claims were denied in 2012. Before the
denial was affirmed on appeal in 2014, he sought postjudgment remedies to further delay final judgment by
requesting leave to add additional claims and abatement to restart his state court habeas litigation.40
While seeking an agreement with the State to voluntarily submit items for DNA testing without
litigation is laudable and generally should not be held
against a movant, the record reveals that Reed initiated the negotiations only after the 5th Circuit Court
of Appeals denied his request for a certificate of appealability approximately three days before. Reed
claims that the State dragged out the negotiations for
months. The record does not indicate one way or the
other. But even if the expiration of five months is
Ex parte Reed, No. WR-50,961-01 (Tex. Crim. App. Feb.
13, 2002) (not designated for publication).
37

Ex parte Reed, No. WR-50,961-02 (Tex. Crim. App. Feb.
13, 2002) (not designated for publication); Ex parte Reed, 271
S.W.3d at 698; Ex parte Reed, Nos. WR-50,961-04 & WR-50,96105, 2009 WL 97260 (Tex. Crim. App. Jan. 14, 2009) (not designated for publication); Ex parte Reed, No. WR-50,961-06, 2009
WL 1900364 (Tex. Crim. App. Jul. 1, 2009) (not designated for
publication).
38

Ex parte Reed, Nos. WR-50,961-04 & WR-50,961-05, 2009
WL 97260, at *1.
39

40

Reed, 739 F.3d at 763, 790.

73a
attributable to the State, it is de minimus in light of
Reed’s lengthy post-conviction litigation. After Reed
secured the State’s agreement to test certain evidence,
he took four months to even start the process of submitting his own reference sample. The timing of
Reed’s motion is even more suspect when we consider
that it was filed on the same day the judge heard the
State’s motion to set an execution date filed three
months earlier.
Chapter 64 had existed with only slight variations
for over thirteen years at the time Reed filed his motion,41 and there does not appear to be any factual or
legal impediments that prevented Reed from availing
himself of post-conviction DNA testing earlier. Reed
argues that he cannot be faulted for his inaction since
Chapter 64’s enactment. He reasons that he could not
have sought the type of forensic DNA testing he does
now until the Legislature amended Article 64.01(a) in
2011 defining “biological material” to include, in relevant part, skin cells, fingernail scrapings, and other
identifiable biological evidence that may be suitable
for DNA testing. We disagree with Reed’s argument
that “[before] the 2011 amendments, a movant could
not move to test items handled by a perpetrator for
‘touch’ DNA unless prior testing or analysis had already established the presence of blood, semen, hair,
saliva, skin tissues or cells, bone, or bodily fluid.”42 In
our 2010 Swearingen opinion, we addressed a Chapter
64 request to perform touch DNA analyses.43 The statutory impediment to Swearingen’s claim was not
41

Acts 2001, 77th Leg., ch. 2, § 2 (effective Apr. 5, 2001).

42

Reed’s Brief at 70.

43

Swearingen, 303 S.W.3d at 732–33.

74a
necessarily the definition of “biological material” but
rather the article’s language requiring a movant to
prove evidence contained biological material.44
Swearingen failed to satisfy this requirement because
he “made[ ] only a general claim that biological material could be found from touching” and “relie[d] on
conclusory statements.”45 Unlike Reed, Swearingen
failed to present expert testimony to support the conclusion that DNA would necessarily be deposited. 46
And unlike in Swearingen, we have previously found
that Reed presented sufficient expert testimony to establish certain evidence contained biological material.
We therefore find no legally unavailable claim or legal
impediment preventing Reed from seeking Chapter 64
testing at a much earlier time.
From the totality of circumstances surrounding
Reed’s motion, we hold that Reed is unable to establish by a preponderance of the evidence that his
motion was not made for purposes of delay.
III. Conclusion
Because Reed failed to show by a preponderance
of the evidence a reasonable probability that exculpatory DNA test results would change the outcome of his
trial and that his request was not made to unreasonably delay the execution of his sentence or the
administration of justice, we conclude that the trial
judge did not err in denying Reed’s Chapter 64 motion.

44

See id. at 732.

45

Id.

46

Id.

75a
DELIVERED: April 12, 2017
PUBLISH

76a

APPENDIX D
To: The Texas Court of Criminal Appeals
____________________________________________
Re: No. AP-77,054 Rodney Reed, Appellant
vs. the state of Texas
Dear Justices:
On September 9, 2016, I signed, adopted
and submitted both Findings of Fact
and
Conclusions of Law, by State of Texas
and Rodney Reed.
Signing of both was an inadvertent mistake, It was and is my intent to sign
and
adopt only the Findings of Fact and Conclusions of Law as proposed by the
State
of Texas.
I apologize to this Court and all parties
for my mistake.
Sincerely,

Doug Shaver, Senior Judge

77a
APPENDIX E
Cause No. 8701
STATE OF TEXAS
v.
RODNEY REED

§
§
§
§
§

IN THE 21ST DISTRICT
COURT
OF
BASTROP COUNTY,
TEXAS

FINDINGS OF FACTS AND
CONCLUSIONS OF LAW
RELEVANT PROCEDURAL HISTORY
1. Reed filed a Chapter 64 motion on July 14, 2014,
seeking to conduct DNA testing (the “Motion” or
“Chapter 64 Motion”).
2. On November 25, 2014, the Court held an evidentiary hearing on the Motion.
3. Crime-scene and forensics expert, John Paolucci,
and DNA expert, Deanna Lankford, testified on
behalf of Reed at the hearing. The State’s witnesses were: Gerald Clough, an investigator with
the Office of the Attorney General of Texas; Lisa
Tanner, the special prosecutor in Reed’s case; and
Etta Wiley, a deputy district clerk for Bastrop
County.
4. At the conclusion of the hearing, the Court denied
the Motion and set Reed’s execution date for
March 5, 2015. R.R. Vol. IV 47:4-11.

78a
5. The State proposed Findings of Facts and Conclusions of Law addressing only that: (1) the Motion
was filed untimely and calls for unreasonable delay, and (2) that there is no reasonable probability
Reed would not have been convicted had the results been available at the trial of the case. The
Court adopted the State’s proposed findings and
conclusions and entered them in an order dated
December 16, 2014.
6. On January 12, 2015, Reed filed a notice of appeal
of the Court’s denial of the Chapter 64 Motion.
7. On June 29, 2016, the Court of Criminal Appeals
entered an order remanding Reed’s Chapter 64
case to the Court for additional findings of fact
and conclusions of law. Reed v. Texas, No. Ap77,054 (Tex. Crim. App. June 29, 2016) (Order).
8. The Court of Criminal Appeals directed the Court
to make the following findings regarding each
item Reed seeks to test:
(a) whether the item still exists and is in a
condition making DNA testing possible;
(b) whether the item has been subject to a
chain of custody sufficient to establish that it
has not been substituted, tampered with, replaced, or altered in any material respect;
(c) whether there is a reasonable likelihood
that the item contains biological material suitable for DNA testing; and
(d) whether identity was or is an issue in this
case.
Id., slip op. at 2.

79a

ADDITIONAL FINDINGS OF FACT
AND CONCLUSIONS OF LAW
A. Whether Evidence Still Exists And Is In A
Condition Making DNA Testing Possible.
Tex. Code Crim. Proc. Art. 64.03(a)(1).
9. Reed seeks to test three categories of evidence: (1)
the victim’s clothing, (2) evidence recovered in or
near the truck the State claims the victim was
driving when she was purportedly abducted, and
(3) evidence recovered from the area where the
victim’s body was discovered. Each of the items
Reed seeks to test is listed in the attached Addendum A.
10. The Court finds that based on the State’s evidence, including the evidence inventories and
hearing testimony of Gerald Clough and Etta
Wiley, each item Reed seeks to test still exists and
is within the possession, custody and control of the
Attorney General’s Office, the Texas Department
of Public Safety Crime Lab, or the Bastrop District
Court Clerk.
11. Crime-scene and forensics expert, John Paolucci,
and DNA expert, Deanna Lankford, testified that
each item Reed seeks to test is in a condition making DNA testing possible. The State offered no
rebuttal evidence on this element. Although the
State attempted to elicit the opinion of its investigator, Gerald Clough, about whether the evidence
is suitable for DNA testing, the Court sustained
objections to this testimony based on Mr. Clough’s
lack of qualifications as a DNA expert.

80a
12. The Court finds that each item listed in Addendum A exists and is in a condition making DNA
testing possible pursuant to Tex. Code Crim. Proc.
art. 64.03(a)(1).
B. Whether The Evidence Has Been Subject To
A Chain Of Custody Sufficient To Establish
That It Has Not Been Substituted, Tampered
With, Replaced, Or Altered In Any Material
Respect. Tex. Code Crim. Proc. Art.
64.03(a)(1)(A)(ii).
13. Each of the items Reed seeks to test has been
within the custody and control of the State since
the item was collected. The State did not contest
the chain of custody as to those items of evidence
within the custody of the Department of Public
Safety Crime Lab or the Office of the Attorney
General. The Court finds that all items of evidence
in the possession of the office of the Attorney General and the Department of Public Safety Crime
Lab have been subjected to a chain of custody sufficient to establish that they have not been
substituted, tampered with, replaced, or altered
in any material respect pursuant to Article
64.03(a)(1)(A)(ii) of the Texas Code of Criminal
Procedure.
14. The State argued that chain of custody was not
established with respect to evidence that was introduced at Reed’s trial in 1998 and has remained
in the custody of the Bastrop District Court ever
since.
15. At the hearing, the Bastrop District Court Criminal Deputy Clerk, Etta Wiley, testified that each
of the items Reed seeks to test remained within

81a
the custody of the Bastrop District Court “under
lock and key.” R.R. Vol. IV 195-196. Wiley also testified that to her knowledge, no item has been
“been substituted, replaced, tampered with, or
materially altered.” R.R. Vol. IV 195-197.
16. Trial prosecutor Lisa Tanner testified regarding
the handling of evidence before and during the
1998 trial. Tanner testified that the evidence was
handled with gloves prior to trial, but that the evidence was handled during the trial by her, the
defense attorneys, and court personnel without
gloves. R.R. Vol. IV 199. Tanner also testified that
she presumed the evidence had been handled by
the district clerk and had also been sent back to
the jury room. Id.
17. The State’s investigator, Mr. Clough, testified in
response regarding the following hypothetical proposed by the State: “if you had collected evidence
and sealed it and put it in custody and somebody
came in and opened that seal and touched it and
then passed it around to other individuals”.
Clough gave a conclusory opinion over objection
that, under these circumstances, he would consider the evidence to be “contaminated”,
“materially altered,” and “tampered with.” R.R.
Vol. IV 185-186.
18. Crime-scene and forensics expert John Paolucci
and DNA expert Deanna Lankford offered unrebutted expert testimony explaining how items
that may have been handled without gloves or
comingled can provide probative DNA evidence
through either identifying and comparing the
DNA of those persons known to have handled the
evidence as well as by comparing DNA profiles

82a
from the potentially contaminated items to those
detected on items from the Attorney General’s evidence locker or the Department of Public Safety
Crime Lab which were not handled at trial. See,
e.g., R.R. Vol. II 26-29, 76-78; R.R. Vol. III 94-101,
104-105, 111; R.R. Vol. IV 76. Reviewing a photograph of the trial exhibits as they were stored
together in a box by the Bastrop District Clerk’s
Office, Lankford also testified that it was common
for evidence in old cases to be submitted to her lab
for DNA testing under similar conditions. She further testified that the manner of storage under
these circumstances did not prevent the lab from
obtaining probative results from the items in the
box. R.R. Vol. III 96.
19. The Court finds that a proper chain of custody has
been established as to the evidence kept as trial
exhibits by the Bastrop District Court Criminal
Deputy Clerk. By admitting the items into evidence at Reed’s 1998 trial, the Court has already
determined that the items were subjected to a
proper chain of custody prior to trial. There is also
no dispute that the evidence was subsequently
maintained by the Bastrop District Clerk under
secure conditions. As discussed by Lankford, the
fact that the items were handled by participants
in the trial is certainly relevant to the Court’s consideration of any DNA results from the testing of
these items. However, such routine handling necessary for the evidence to be considered at trial
does not destroy the chain of custody as to that
evidence.
20. The Court finds that each item Reed seeks to test
has been subjected to a chain of custody sufficient

83a
to establish that it has not been substituted, tampered with, replaced, or altered in any material
respect within the meaning of Article
64.03(a)(1)(A)(ii) and therefore meets the requirements of that article.
C. Whether There Is A Reasonable Likelihood
That The Items Contain Biological Material
Suitable For DNA Testing.
21. Crime-scene and forensics expert John Paolucci
and forensic DNA expert Deanna Lankford testified why each item Reed seeks to test contains
biological evidence.
22. Lankford opined that, to a reasonable degree of
scientific certainty, each item Reed seeks to test
contains biological material suitable for DNA testing. See R.R. Vol. II 17-18; R.R. Vol. III 114, 117118, 135, 142; Defendant’s Hearing Ex. 11, ¶ 15.
23. Paolucci explained how the items would have been
handled during the commission of the crime and
that DNA evidence obtained from those items
could reveal the killer’s identity. R.R. Vol. II 1718.
24. The State offered no rebuttal witnesses, and sponsored no documentary evidence contradicting
Paolucci’s or Lankford’s testimony. In fact, the
State’s contamination arguments made in the context of chain of custody presume that biological
material is present on each of the items of evidence kept in the custody of the Bastrop District
Clerk’s Office.
25. The Court finds that there is a reasonable likelihood that each item Reed seeks to test contains

84a
biological material and therefore meets the requirements of Tex. Code Crim. Proc. art. 64.01(a).
26. The Court further finds that each item Reed seeks
to test was gathered in relation to the offense that
is the basis of Reed’s conviction and was in the
possession of the State during Reed’s trial.
27. The Court accepts the unrebutted testimony of
Deanna Lankford that the evidence was either not
previously subjected to DNA testing, or can be
tested using newer techniques that provide a reasonable likelihood of results that are more
accurate and probative than the results of any
previous testing.
28. Based on the documentary and testimonial evidence introduced at the hearing, the Court finds
that the requirements of Tex. Code Crim. Proc.
art. 64.01(b) are satisfied for each item Reed seeks
to test.
D. Whether Identity Was Or Is An Issue In This
Case.
29. The identity of Ms. Stites’s killer was the primary
contested issue at trial, and has been a contested
issue through appeal and petitions for a writ of
habeas corpus. The Court of Criminal Appeals has
noted that the facts give rise to “a healthy suspicion that Fennell [the victim’s fiancé] had some
involvement in Stacey’s death.” Ex parte Reed, 271
S.W.3d 698, 747 (Tex. Crim. App. 2008). This
Court finds that identity is at issue as required by
Article 64.03(a)(1)(C).

85a

86a
ADDENDUM A
ITEMS REED SEEKS TO TEST
Victim’s
Clothing
Pants

In or Near
Truck
HEB pen

Underwear
Bra

Knife and
metal cover
Green lighter

Employee
name tag

Metal box
cutter

White t-shirt

Pack of Big
Red gum

Section of belt
(no buckle)
Section of belt
with buckle
Earring

Pieces of
plastic cup
Brown planner/ piece of knife
organizer
Single hair
from organizer/
planner
White paper
napkin

Right shoe

Victim
Recovery Scene
Plastic bags
placed over
victim’s hands
during investigation
Used condom
Two Busch beer
cans
Swabs/samples
taken from
mouths of two
Busch beer
cans
Extract samples from blue
condom stored
in coin envelope
piece of shirt

87a
Left Shoe
HEB Employee
shirt
Strands of hair
from left sock,
back of left leg,
back
Tape lifts from
pubic area
vaginal and
rectal swabs

Carbon copies
of checks
Gas emergency
book
Latent fingerprint
Automatic
teller receipt
bridal shop receipt
Wal-Mart
receipt
business card
plastic bag
blue nylon rope
brown rope

88a
Cause No. 8701
STATE OF TEXAS
v.
RODNEY REED

§
§
§
§
§

IN THE 21ST DISTRICT
COURT
OF
BASTROP COUNTY,
TEXAS

SUPPLEMENTAL FINDINGS OF FACTS AND
CONCLUSIONS OF LAW
After considering the record in this case, and
after making credibility determinations following a
live hearing in this Chapter 64 proceeding, the Court
enters the following supplemental findings of fact and
conclusions of law:
Relevant Procedural History
1. On July 14, 2014, Movant filed a Chapter 64 motion.
2. The State responded on September 12, 2014, and
attached several exhibits regarding the existence,
custody, and present condition of evidence collected in connection with the investigation of
Movant’s offense.
3. On October 22, 2014, the State filed an amended
inventory regarding fingerprint evidence.
4. Movant filed an affidavit from a DNA expert on
October 23, 2014.
5. On October 27, 2014, the Court set a hearing on
Movant’s Chapter 64 motion.
6. Movant filed a reply on November 24, 2014, and
attached a personal affidavit.

89a
7. The Court held a live hearing on the Chapter 64
motion on November 25, 2014. Movant called
crime-scene and forensics expert, John Paolucci,
and DNA expert, Deanna Lankford. The State
called Gerald Clough, an investigator with the Office of the Attorney General of Texas, Lisa Tanner,
the special prosecutor on Movant’s case, and Etta
Wiley, a deputy district clerk for Bastrop County.
Movant and the State also introduced various exhibits. After considering the record in this case,
and after making credibility determinations from
the hearing, the Court denied Movant’s Chapter
64 motion.
8. On December 12, 2014, the Court issued findings
of fact and conclusions of law explaining the denial of Movant’s Chapter 64 motion.
9. Movant filed a notice of appeal on January 12,
2015.
10. On June 29, 2016, the Court of Criminal Appeals
remanded this case for the limited purpose of
making additional findings “regarding each item
[Movant] seeks to have tested:
(1) whether the item still exists and is in a
condition making DNA testing possible;
(2) whether the item has been subjected to a
chain of custody sufficient to establish
that it has not been substituted, tampered
with, replaced, or altered in any material
respect;
(3) whether there is a reasonable likelihood
that the item contains biological material
suitable for DNA testing; and

90a
(4) whether identity was or is an issue in this
case.”
11. On July 5, 2016, the Court entered a scheduling
order requiring the parties to file proposed findings.
Supplemental Findings of Fact and Conclusions of
Law
Items Requested for DNA Testing
12. The Court finds that Movant initially requested
DNA testing on the following items:
•

White paper napkin

•

Belt (in two parts)

•

HEB pen

•

Carbon copies of checks

•

Gas emergency book

•

Latent fingerprint

•

Automated teller receipt

•

Bridal shop receipt

•

Green cigarette lighter

•

Metal box cutter

•

Package of Big Red gum

•

Walmart receipt

•

Business card

•

Plastic bag

•

Earring

•

Knife with metal cover

•

Blue rope

91a
•

Brown rope

•

White t-shirt

•

Hair from Stites’s left sock

•

Hair from Stites’s left leg

•

Hair from Stites’s back

•

Hair from pubic tape lift

•

Pubic tape lift

•

Blue pants

•

Black bra

•

Green panties

•

HEB nametag

•

Vaginal swabs taken by medical examiner

•

Rectal swabs taken by medical examiner

•

Piece of a shirt

•

Condom

•

Piece of a knife

13. At the hearing, Movant expanded his initial DNA
testing request to include these items and parts of
items as well:
•

Blue pants—the crotch, zipper, cuffs,
waistband, button opening, and button

•

Green panties—the crotch and waistband

•

Black bra—the clasp

•

White t-shirt—the collar

•

Socks—the heels and cuffs

•

Left shoe—the heel and laces

92a
•

Right shoe—the heel and laces

•

HEB shirt—the collar, cuffs, and armpits

•

Pieces of a green cup

•

Portrait receipt

•

Brown planner

•

Beer cans—the lip and crush ridges

•

Hair from brown planner

•

Bags around Stites’s hands

•

Extracts from condom

•

Extracts from beer cans

•

White flakes

•

Two tape lifts from Stites’s body

•

Green blanket

•

Driver’s seat tape lift

•

White paper sheet

•

Back brace

•

Knee brace

14. At the hearing, Movant withdrew his request to
test items that were part of a previous DNA testing agreement with the State:
•

Hair from Stites’s left sock

•

Hair from Stites’s left leg

•

Hair from Stites’s back

•

Hair from pubic tape lift

•

Vaginal swabs taken by medical examiner

93a
•

Rectal swabs taken by medical examiner

15. The Court notes that the State timely objected to
Movant’s expanded DNA testing request.
Existence of Items and Their Condition
16. The Court finds that all of the items listed in findings 12 and 13 still exist and are in a condition
making DNA testing possible.
Chain of Custody
17. The Court finds that the following items have
NOT been subjected to a chain of custody sufficient to establish that it has not been substituted,
tampered with, replaced, or altered in any material respect:
•

Blue pants

•

Green panties

•

Socks

•

Left shoe

•

Right shoe

•

Black bra

•

HEB nametag

•

White t-shirt

•

Belt (in two parts)

•

Earring

•

HEB shirt

•

Knife with metal cover

•

Pieces of a green cup

•

Brown planner

94a
•

Back brace

•

Bridal shop receipt

•

Portrait receipt

•

Knee brace

•

Carbon copies of checks

•

Walmart receipt

18. In making finding 17, the Court considers the following evidence:
18a. Tanner credibly testified that, following
forensic analysis of the items in finding
17, the items were handled ungloved by
the trial participants, court personnel,
and possibly jurors as they were exhibits
in Movant’s trial. Tanner’s testimony on
this point was not contradicted by Movant.
18b. Clough credibly testified that some of the
items in finding 17 have been stored
without packaging, comingled in unsealed boxes. Clough’s testimony on this
point was not contradicted by Movant.
18c. Wiley credibly testified that some of the
items in finding 17 have been stored
without packaging, comingled in a manila envelope. Wiley’s testimony on this
point was not contradicted by Movant.
18d. Paolucci testified that evidence should
remain sealed, or handled with loves if
unsealed, “[t]o prevent contamination.”
Paolucci admitted that there is “a good
chance that [the items in finding 17 are]
contaminated evidence.”

95a
18e. Lankford testified that, if evidence in her
laboratory was unsealed and touched
with an ungloved hand, “you’ve tampered with our evidence.”
19. The Court finds that all items listed in findings 12
and 13, except those in finding 17, have been subjected to a chain of custody sufficient to establish
that it has not been substituted, tampered with,
replaced, or altered in any material respect.
Reasonable Likelihood of Biological Material Suitable
for DNA Testing
20. The Court finds that there is NOT a reasonable
likelihood that the following items contain biological material suitable for DNA testing:
•

White paper napkin

•

Belt (in two parts)

•

HEB pen

•

Carbon copies of checks

•

Gas emergency book

•

Latent fingerprint

•

Automated teller receipt

•

Bridal shop receipt

•

Green cigarette lighter

•

Metal box cutter

•

Package of Big Red gum

•

Walmart receipt

•

Business card

•

Plastic bag

•

Earring

96a
•

Knife with metal cover

•

Blue rope

•

Brown rope

•

White t-shirt—the collar

•

Pubic tape lift

•

Blue pants—the crotch, zipper, cuffs,
waistband, button opening, and button

•

Black bra—the clasp

•

Green panties—the crotch and waistband

•

HEB nametag

•

Piece of a shirt

•

Condom

•

Piece of a knife

•

Socks—the heels and cuffs

•

Left shoe—the heel and laces

•

Right shoe—the heel and laces

•

HEB shirt—the collar, cuffs, and armpits

•

Pieces of a green cup

•

Portrait receipt

•

Brown planner

•

Beer cans—the lip and crush ridges

•

Hair from brown planner

•

Bags around Stites’s hands

•

Extracts from condom

•

Extracts from beer cans

•

White flakes

97a
•

Two tape lifts from Stites’s body

•

Green blanket

•

Driver’s seat tape lift

•

White paper sheet

•

Back brace

•

Knee brace

21. In making finding 20, the Court considers the following evidence:
21a. For purposes of establishing biological
material on most items, Movant relied on
skin cell transfer—Locard’s exchange
principle.
21b. Paolucci testified that, for paper items,
he would prefer latent print examination
over DNA testing because “we didn’t
have much success testing paper as a
substrate.”
21c. The following items are paper goods:
•

White paper napkin

•

Carbon copies of checks

•

Automated teller receipt

•

Bridal shop receipt

•

Walmart receipt

•

Business card

•

Portrait receipt

•

White paper sheet

21d. Paolucci testified that he would want additional examination to
determine if
biological material existed on the following items:

98a
•

White paper napkin

•

White flakes

•

Two tape lifts from Stites’s body

•

Green blanket

•

Driver’s seat tape lift

•

White paper sheet

21e. Paolucci’s request for additional examination to determine if biological material
exists on the items in finding 21d necessarily means that he does not know if
biological material exists on such items.
21f. Paolucci admitted that the only way to
determine if there is biological material
on a certain item is if it is tested for DNA
and he could not “promise anybody that
there’s going to be DNA” on any particular item.
21g. Paolucci admitted that he could not “say
for sure where—where these items were
touched.”
21h. Paolucci specifically admitted that he
could not say that the perpetrator
touched any of the following items:
•

White paper napkin

•

HEB pen

•

Knife with metal cover

•

Brown planner

21i. Paolucci did not discuss whether biological material might be found on the
following items:
•

White paper napkin

99a
•

Carbon copies of checks

•

Gas emergency book

•

Latent fingerprint

•

Automated teller receipt

•

Bridal shop receipt

•

Walmart receipt

•

Business card

•

Plastic bag

•

Blue rope

•

Brown rope

•

Pubic tape lift

•

Piece of a shirt

•

Piece of a knife

•

Portrait receipt

•

Extracts from condom

•

Extracts from beer cans

•

White flakes

•

Two tape lifts from Stites’s body

•

Green blanket

•

Driver’s seat tape lift

•

White paper sheet

21j. Lankford testified that “the only way to
know for sure” if biological material is
present “is to test the[ items] and obtain
a DNA profile” and that she “couldn’t testify to there being a biological stain, for
instance, on an item of clothing without
testing it.”

100a
21k. Lankford admitted that she has no personal knowledge that any particular
item of evidence was manipulated with
bare hands.
21l. Lankford admitted that she did not know
whether any particular item was handled or that there is biological material
in the supposedly handled spot on the
item.
21m. Lankford admitted that she had no personal knowledge that Stites was dragged
by her clothing and that it was equally
likely that she was moved via her unclothed body parts.
21n. Lankford admitted that she could not
say whether any particular stain on the
white t-shirt contained biological material.
21o. Lankford admitted that she could not
say that the following items were handled during the commission of Stites’s
murder:
•

White paper napkin

•

HEB pen

•

Carbon copies of checks

21p. Lankford testified that for the items in
finding 17, there is the possibility that so
much biological material has been contributed it will be impossible to
deconstruct the mixture.

101a
21q. Lankford stated she “couldn’t say for
sure” that DNA will be detected on the
items for which Movant requests testing.
21r. Lankford testified that, as far as fingerprints go, “sometimes we obtain a DNA
profile and sometimes we don’t.”
21s. Lankford testified that she would want
additional examination to determine if
biological material existed on the following items:
•

Green blanket

•

White paper sheet

•

Driver’s seat tape lift

21t. Lankford’s request for additional examination to determine if biological material
exists on the items in finding 21s necessarily means that she does not know if
biological material exists on such items.
21u. Lankford did not discuss whether biological material might be found on the
following items:
•

Gas emergency book

•

Automated teller receipt

•

Bridal shop receipt

•

Walmart receipt

•

Business card

•

Plastic bag

•

Earring

•

Blue rope

•

Brown rope

102a
•

Piece of a shirt

•

Piece of a knife

•

Portrait receipt

•

Hair from brown planner

•

Extracts from condom

•

Extracts from beer cans

•

Green blanket

•

Driver’s seat tape lift

•

White paper sheet

•

Back brace

•

Knee brace

21v. The items listed in finding 17 have been
contaminated, tampered, and/or altered,
as explained in finding 18.
21w. There was testimony at trial that Stites
was not dragged to her resting place.
21x. There was testimony at trial that Stites’s
fingernails were too short to obtain
scrapings from underneath.
21y. There was no testimony at trial that
Stites hit or scraped her attacker with
her hands.
21z. There was testimony at trial that the following items contained no stains of
evidentiary value on them:
•

White t-shirt

•

White flakes

•

Black bra

•

Paper napkin

103a
•

White paper sheet

•

Knee brace

•

HEB shirt

22. The Court finds that there is a reasonable likelihood that all items listed in findings 12 and 13,
except those in finding 20, contain biological material suitable for DNA testing. Namely, the hair
from the brown planner.
23. The Court notes that the reasonable likelihood
standard utilized in finding 20 comes from an
amendment of Chapter 64 that occurred after Movant filed his Chapter 64 motion.
24. The Court would enter finding 20 whether applying the 2013 version of Chapter 64 or the 2015
amendments to Chapter 64.
Identity Was or Is an Issue
25. The Court finds that identity was an issue in this
case.
Supplementation
26. The above findings are supplemental to those issued by the Court on December 12, 2014.

104a

APPENDIX F

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
____________
NO. AP-77,054
____________
RODNEY REED, Applicant,
v.
THE STATE OF TEXAS
____________
ON DIRECT APPEAL IN
CAUSE NO. 8701 FROM THE 21ST
DISTRICT COURT, BASTROP COUNTY
____________
Per curiam. KELLER, P.J., filed a dissenting
opinion. NEWELL, J., not participating.

105a
ORDER
On July 14, 2014, Rodney Reed filed a Chapter 64
Motion for Post-Conviction DNA testing. On November 25, 2014, the convicting court held a hearing on
Reed’s Chapter 64 motion. The trial judge issued findings of fact and conclusions of law on Reed’s motion on
December 16, 2014 and denied his request. On February 15, 2015, we received Rodney Reed’s direct appeal
from the trial court’s denial. We now remand the
cause to the trial court for additional findings and conclusions pursuant to Chapter 64.
The trial judge made findings and conclusions under article 64.03(a)(2),1 but did not make findings on
whether the pieces of evidence Reed seeks to have
tested satisfy article 64.03(a)(1).2 Specifically, the
trial court shall make the following findings regarding
each item Reed seeks to have tested: (1) whether the
item still exists and is in a condition making DNA
testing possible; (2) whether the item has been subjected to a chain of custody sufficient to establish that
it has not been substituted, tampered with, replaced,
or altered in any material respect; (3) whether there
is a reasonable likelihood that the item contains biological material suitable for DNA testing; and (4)
whether identity was or is an issue in this case.3
The trial court shall forward these additional
findings to this Court within 60 days of this order. Any
extensions of time shall be obtained from this Court.

1

TEX. CODE CRIM. PROC. art. 64.03(a)(2)(A)-(B).

2

See id. art. 64.03(a)(1)(A)-(C).

3

Id.

106a
Filed: July 29, 2016
Do not publish

107a
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS

____________
NO. AP-77,054
____________
RODNEY REED, Appellant,
v.
THE STATE OF TEXAS
____________
ON DIRECT APPEAL IN
CAUSE NO. 8701 FROM THE 21ST
DISTRICT COURT, BASTROP COUNTY
____________
KELLER, P.J., filed a dissenting opinion.
In recommending that appellant’s motion for DNA
testing under Chapter 64 be denied, the trial court
found that appellant failed to satisfy two of the statutory requirements. The Court, however, remands for
the trial court to make findings on four other statutory
requirements. Because the trial court’s findings are

108a
sufficiently supported and those findings are, with respect to either of the two statutory requirements that
were addressed, sufficient to deny relief, I see no point
in remanding this case for further findings.
I. BACKGROUND
A. General Chronological Background
Stacey Stites was sexually assaulted and murdered over twenty years ago, on April 23, 1996. The
facts of the case are recited in detail in our opinion on
direct appeal and in an opinion on appellant’s second
subsequent habeas application.1 DNA evidence revealed that appellant’s intact sperm was found inside
the victim, which indicated that he had sexual intercourse with her shortly before her death.2 In rejecting
a factual sufficiency claim on direct appeal, we observed that the DNA evidence connected appellant to
the sexual assault, and the forensic evidence indicated
that the person who sexually assaulted the victim was
also the person who killed her.3
Appellant was tried and convicted of the capital
murder of Stites in May of 1998. After we affirmed the
conviction on direct appeal in 2000, appellant filed six
state habeas applications, the last three of which were
disposed of in 2009.4 Appellant also pursued remedies
See Reed v. State, No. AP–73,135 (Tex. Crim. App. Dec. 6,
2000) (not designated for publication); Ex parte Reed, 271 S.W.3d
698, 701–12 (Tex. Crim. App. 2008).
1

2

See Reed, 271 S.W.3d at 705.

3

Id. at 712 (quoting from our direct appeal opinion).

See Ex parte Reed, No. WR-50,961-04 and WR–50,961–05
(Tex. Crim. App. January 14, 2009) (not designated for publication); Ex parte Reed, No. WR-50,961-06 (Tex. Crim. App. July 1,
2009) (not designated for publication).
4

109a
on federal habeas, and the denial of relief in the federal system was ultimately upheld by the Fifth Circuit
on January 10, 2014.5 On April 8, 2014, the State filed
a motion to set an execution date. On July 14, 2014, a
hearing was held to set an execution date. On that
date, shortly before the hearing, appellant had filed a
motion for DNA testing. Relying upon his motion and
the State’s agreement to test some items for DNA, appellant requested that no execution date be set. The
State requested an execution date of January 14,
2015, which would give appellant six months to litigate any issues. In accordance with the State’s
recommendation, the trial court set the execution date
for January 14, 2015.
In November 2014, a hearing was held on appellant’s DNA motion. At the end of the hearing, the trial
court stated that “this motion was filed untimely and
calls for unreasonable delay, that there’s no reasonable probability the defendant would not have been
convicted had the results been available at the trial of
the case.” At the State’s request, however, the trial
court reset the execution date to March 5, 2015. On
December 2, 2014, appellant requested a subpoena to
obtain a personal reference sample for the purpose of
the DNA testing that had been agreed to on July 14,
2014.
B. Trial Court’s Findings
On December 16, 2014, the trial court filed findings of fact and conclusions of law. These findings are
extensive and amplify the trial court’s two overarching bases for denying relief. The findings are also
supported by the record.
5

See Reed v. Stephens, 739 F.3d 753 (5th Cir. 2014).

110a
1. Delay
With respect to the first basis—that the DNA motion was made for the purpose of unreasonably
delaying the execution of sentence—the trial court
pointed to thirteen factors in support of its conclusion.
First, the trial court stated that appellant had not provided the court “with any information regarding time
estimates for the extensive DNA testing he seeks.”
Second, the trial court observed that appellant “filed
his Chapter 64 motion on the day [the trial court] initially set the [appellant’s] execution date.” The trial
court believed that the timing of the Chapter 64 filing
“was not coincidental but a designed tactic to delay
the setting of [appellant’s] execution date” and, when
combined with appellant’s failure to propose “concrete
timelines” was indicative of a “repeated desire to infinitely delay his execution date.”
Third, the trial court pointed out that appellant’s
DNA motion “was filed thirteen years after Chapter
64’s enactment and approximately three years after
Chapter 64’s most recent amendment.” The trial court
remarked that “there was no legal impediment to filing a Chapter 64 motion during this entire period” and
pointed out that appellant “has been continuously represented by counsel during his postconviction
proceedings.” Fourth, the trial court explained that
appellant’s “first informal request for DNA testing occurred three days after” the Fifth Circuit upheld the
denial of relief in the federal system—indicating that
appellant “only sought DNA testing after his other efforts at relief proved unsuccessful.”
Fifth, the trial court pointed out that appellant’s
counsel had represented Larry Swearingen and that
appellant’s motion for DNA testing was similar to

111a
Swearingen’s. Consequently, the trial court concluded
that appellant’s counsel “had the legal and factual
knowledge to file [appellant’s] present Chapter 64 motion more than a year before it was filed.”
Sixth, the trial court pointed to appellant’s proceedings in other courts as showing his intent to
delay. The trial court observed that appellant “has
been cited for abuse of the writ on five separate occasions by the Court of Criminal Appeals.” Moreover,
the United States District Court for the Western District of Texas had ruled that appellant had untimely
sought forensic testing and was dilatory in submitting
an affidavit. And the trial court cited the Fifth Circuit
as also finding that appellant submitted evidence in
an untimely fashion. The trial court concluded these
proceedings show that appellant “has engaged in a dilatory and piecemeal litigation strategy throughout
his postconviction proceedings” and that his DNA motion “is a continuation of such behavior.”
Seventh, the trial court observed that appellant
“has thrice asked the Court to indefinitely postpone
his execution date.” The court concluded that appellant’s requests for, “essentially, indefinite stays works
against him in proving that he is not attempting to
unreasonably delay his execution.”
Eighth, the trial court remarked that, at the live
evidentiary hearing on the DNA motion, appellant
“asked for DNA testing on a substantial amount of evidence that he had not mentioned in his Chapter 64
motion.” The trial court considered these “last-minute
amendments to his Chapter 64 pleadings” to be yet
another example of dilatory tactics.
Ninth, the trial court found appellant’s explanation for these amendments—that he learned of the

112a
existence of certain items for the first time from the
State’s inventory in response to the DNA motion—to
be inadequate because one of the items had been heavily litigated during prior postconviction proceedings
and other items that were supposedly revealed for the
first time in the State’s inventory had been referred to
in appellant’s DNA motion.
Tenth, the trial court observed that appellant possesses extracts from some of the evidence for which he
seeks testing. The court concluded that appellant’s request “to test these items via Chapter 64 when he
could conduct the testing himself, especially given his
offer to pay for DNA testing,” also supports the trial
court’s conclusion that the request is for the purpose
of unreasonable delay.
Eleventh, appellant has also requested testing of
items the State has already agreed to test. This request for “redundant testing” was also seen by the
trial court as an attempt to unreasonably delay execution.
Twelfth, the trial court pointed to the fact that appellant’s counsel “had repeatedly stated, in pleadings
and in court, that he plans to soon file postconviction
motions for relief pursuant to Articles 11.071 and
11.073,” but despite this “promise of diligence,” applicant “has not filed either pleadings.”
Finally, the trial court remarked that applicant
“waited more than four months to obtain a subpoena
for a reference sample from himself for purposes of the
agreed-to DNA testing.”
2. Probability of Conviction
With respect to the second overarching basis for
denying relief—that appellant has not shown by a

113a
preponderance of the evidence that he would not have
been convicted but for exculpatory results from DNA
testing—the trial court pointed to three factors in support of its conclusion. First, the trial court observed
that the State’s “case on guilt-innocence was strong.”
Appellant’s DNA was found both on and inside the victim, his sperm was intact in the vaginal cavity, and
his saliva was on the victim’s breasts. The peri-mortem injury to the victim’s anus, the victim’s bunched
up panties, a broken pants zipper, the victim being
partially unclothed, and bruises on the victim’s arms,
torso, and head were obvious signs of sexual assault
and showed that the victim did not consent to sexual
activity. Other evidence showed that appellant “frequented the area of the victim’s disappearance at the
time the victim disappeared” and “matched the height
of someone who would have fit the adjusted seat in the
victim’s truck.”
Second, the trial court remarked that many of the
items appellant seeks to test “were already before the
jury and the jury knew they did not match” him. For
example, the trial court explained, a DNA and forensics expert testified that one of the hairs that
appellant seeks to test did not match his genetic profile. A Department of Public Safety forensics expert
testified that none of the hairs collected from the victim’s body microscopically matched appellant’s hair.
And appellant’s fingerprints did not match any of the
fingerprints collected during the course of the investigation.
Third, the trial court found that “none of the evidence Reed seeks to test was so integral to the State’s
case that the jury would have acquitted despite knowing that [Reed’s] DNA was not on the item.” The court

114a
pointed to the fact that many of the items were in a
truck shared with the victim’s fiancé and evidence
demonstrated that other people had ridden in the
truck. Moreover, many of the items “have been handled by ungloved individuals.” At best, the trial court
concluded, exculpatory results would merely “muddy
the waters, not prove by a preponderance that he
would have been acquitted.”
II. ANALYSIS
In several contexts, we have held that a court need
only address issues that are sufficient to dispose of the
case.6 Courts on appeal, this Court on habeas, and
trial courts on habeas may all decline to address an
issue that is not necessary to the disposition of the
case because of the court’s disposition of some other
issue.7 If, for example, a court grants relief to a habeas
applicant on one ground, it may decline to reach other
grounds for relief, as long as the unreached grounds
would not afford greater relief.8
The same principle applies here. There are a number of requirements that must be satisfied in order for
a convicted person to be entitled to DNA testing under
Chapter 64.9 The failure to meet any one of these requirements is fatal to a defendant’s claim under the
statute.10 The trial court concluded that appellant
Ex parte Reyes, 474 S.W.3d 677, 680–81 (Tex. Crim. App.

6

2015).
7

Id.

8

Id.

9

See TEX. CODE CRIM. PROC. art. 64.03(a).

Bell v. State, 90 S.W.3d 301, 306 (Tex. Crim. App. 2002)
(“a court must order testing only if the statutory preconditions
are met”).
10

115a
failed to satisfy two of the statutory requirements for
obtaining DNA testing. If the trial court is correct as
to either of the two requirements, then it need not address whether appellant has satisfied other
requirements.11
An appellate court should remand a case when
“the trial court’s erroneous action or failure or refusal
to act prevents the proper presentation of a case” to
the appellate court.12 We are now in a position to determine whether the trial court’s reasons for denying
testing are correct. If either of the trial court’s two bases for denying relief are correct, there is no
“erroneous action or failure or refusal to act” that
would serve as a basis for a remand. A remand might
well provide further ammunition for a denial of relief,
but if either of the trial court’s conclusions is correct,
further conclusions would not change the outcome of
this appeal.
In any event, this is not a difficult case. The trial
court has given numerous record-supported reasons
for its conclusion that appellant has failed to show
that the DNA motion “is not made to unreasonably delay the execution of sentence or administration of
justice.”13 Appellant waited over thirteen years after
the passage of Chapter 64 to file a DNA motion and
The trial court could have chosen to address more than
two requirements, but it was not obligated to do so; indeed, the
trial court did more than it had to by addressing two.
11

See Tex. R. App. P. 44.4(a) (“A court of appeals must not
affirm or reverse a judgment or dismiss an appeal if (1) the trial
court’s erroneous action or failure or refusal to act prevents the
proper presentation of a case to the court of appeal; and (2) the
trial court can correct its action or failure to act.”)
12

13

See TEX. CODE CRIM. PROC. art. 64.03(a)(2)(B).

116a
nearly seven years after it was last amended.14 He had
time to file six habeas applications with this Court but
not to file a single motion for DNA testing. He filed his
DNA motion only after his other legal avenues were
exhausted and after the State sought to set his execution date. He has given no timeframe for when testing
might be complete and he has sought to test a large
number of items. He has been cited for untimely submitting matters in federal court,15 and he has been
dilatory in connection with his DNA motion even after
it was filed—broadening the scope of his testing requests in the evidentiary hearing beyond what was
originally sought in his motion, taking four months to
even start the process of submitting his own reference
sample, and continually seeking to indefinitely postpone his execution date.
This is not the conduct of a convicted person who
knows he is innocent and thinks that DNA testing will
prove it. Nor is it the conduct of a defense team who
has any reason to believe the convicted person is innocent and thinks that DNA testing would prove it. This
is the conduct of a defense team that realizes there is
no hope of exoneration and is simply trying to delay
the inevitable execution.
And then there is the trial court’s second basis for
denying relief: that appellant has not shown by a preponderance of the evidence that, had exculpatory
DNA results been obtained, he would not have been

The statute has been amended since applicant filed his
motion. See Acts 2015, 84th Leg., ch. 70 (S.B. 487), § 2, eff. Sept.
1, 2015; Acts 2015, 84th Leg., ch. 1276 (S.B. 1287), § 11, eff. Sept.
1, 2015.
14

15

See Reed v. Stephens, 739 F.3d 753, 768 n.5, 776 n.12.

117a
convicted.16 The trial court’s supporting reasons for
this basis are not nearly as numerous as for the first
basis but they do not have to be. Appellant was tied to
this murder by DNA testing: his sperm was found inside the victim. That sperm was intact, indicating that
appellant had sex with the victim at a relatively short
time before the murder. The forensic evidence shows
that the rapist was the murderer and the DNA evidence shows that appellant was the rapist.
Appellant’s only answer to the presence of his
own sperm in the victim is to advance the theory from
his own interested witnesses that he had some prior
relationship with the victim and so the sex might have
been consensual. In proceedings in federal court,
Judge Lee Yeakel effectively answered this contention
by explaining that none of applicant’s evidence was
reliable:
Without reliable evidence demonstrating how
this happened consensually, the DNA evidence effectively condemns Reed. And what
evidence is there of a prior relationship?
Statements of people who claim to have seen
the two together. Yet, many of these are the
very sort of eyewitness accounts that have
been shown in numerous cases to be unreliable. Most of these witnesses did not know
Stacey Stites, and identified her from memory
by viewing her photograph. Those who
claimed to have known her were proven to be
badly mistaken. All of these witnesses were
family, friends, or associates of Reed’s. Reed
was never able to identify anyone who was a
16

See TEX. CODE CRIM. PROC. art. 64.03(a)(2)(A).

118a
friend, family member, or associate of Stacey
Stites who claimed to have been aware of a relationship between Reed and Stites. In short,
there is no reliable evidence that ties Reed to
Stites before her murder.17
Without reliable evidence that appellant had a prior
relationship with the victim, DNA evidence pointing
to the involvement of another individual “would not
exonerate appellant because it would show nothing
more than there was another party to the crime, at
best.”18
Appellant is not entitled to DNA testing. We do
not need a remand to arrive at that conclusion. Because the Court remands this case when doing so is
unnecessary, I respectfully dissent.
Filed: June 29, 2016
Do Not Publish

Reed v. Thaler, 2012 U.S. Dist. LEXIS 83422, *133 (W.D.
Tex. June 15, 2012)
17

18

2006).

Wilson v. State, 185 S.W.3d 481, 485 (Tex. Crim. App.

119a
APPENDIX G
CAUSE NO. 8701
____________
STATE OF TEXAS
v.
RODNEY REED

IN THE 21ST
DISTRICT COURT
OF
BASTROP
COUNTY, TEXAS

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
After considering the record in this case, and after
making credibility determinations following a live
hearing in this Chapter 64 proceeding, the Court enters the following findings of fact and conclusions of
law:
Relevant Procedural History
1. The State, on April 8, 2014, filed a motion to set
an execution date for Movant, Rodney Reed. The
State requested a date of November 19, 2014.
2. Movant, on April 8, 2014, filed a motion to recuse
the elected judge overseeing his case, Judge
Towslee-Corbett.
3. Movant, on April 14, 2014, opposed setting of an
execution date. Movant requested indefinite delay
of his execution to conduct DNA testing, to file a
subsequent state habeas application, and to file a
scientific-evidence application.
4. On May 23, 2014, Judge Towslee-Corbett issued
an order of voluntary recusal.

120a
5. On May 28, 2014, Judge Underwood, the presiding judge of the Second Administrative Judicial
Region, assigned the undersigned judge to preside
over the case.
6. On June 18, 2014, the Court set a hearing on the
State’s motion to set an execution date.
7. On June 17, 2014, the Court re-set the hearing on
the State’s motion to set an execution date at the
request of the parties.
8. On July 14, 2014, the Court held a hearing on the
State’s motion to set an execution date. The Court
entered an order setting Movant’s execution for
January 14, 2015.
9. On July 14, 2014, immediately before the hearing
on the State’s motion to set an execution date, Movant filed the instant Chapter 64 motion. The
motion contained no affidavit from Movant and no
affidavit from a DNA expert. Movant, however, attached several affidavits purporting to undermine
the State’s forensic case at trial.
10. At the July 14, 2014, hearing, the Court signed an
order permitting agreed-to DNA testing. The
items to be tested included four specified hairs
and various swabs taken from the victim’s body.
11. At July 14, 2014, hearing, Movant requested indefinite delay of his execution to conduct DNA
testing.
12. The State timely responded on September 12,
2014. The State attached several exhibits regarding the existence, custody, and present condition
of evidence collected in connection with the investigation of Movant’s offense.

121a
13. Movant filed a letter requesting a hearing on the
Chapter 64 motion on October 14, 2014.
14. The State filed a letter opposing a hearing on the
Chapter 64 motion on October 22, 2014. The State
attached an exhibit reflecting an amended inventory regarding fingerprint evidence.
15. Movant filed a letter again requesting a hearing
on the Chapter 64 motion on October 23, 2014.
Movant attached, for the first time ever, an affidavit from a DNA expert.
16. On October 27, 2014, the Court set a hearing on
Movant’s Chapter 64 motion.
17. On November 18, 2014, the State moved to modify
Movant’s execution date. The State requested an
amended date of March 5, 2015.
18. Movant filed a reply to the State’s Chapter 64 response on November 24, 2014. Movant attached,
for the first time ever, a personal affidavit.
19. Movant filed a motion to withdraw his execution
date on November 25, 2014, immediately before
the hearing on his Chapter 64 motion. Movant requested indefinite delay of his execution to
conduct DNA testing or to appeal the denial of
DNA testing.
20. The Court held a live hearing on the Chapter 64
motion on November 25, 2014. Movant called
crime-scene and forensics expert, John Paolucci,
and DNA expert, Deanna Lankford. The State
called Gerald Clough, an investigator with the Office of the Attorney General of Texas, Lisa Tanner,
the special prosecutor on Movant’s case, and Etta
Wiley, a deputy district clerk for Bastrop County.
Movant and the State also introduced various

122a
exhibits. After considering the record in this case,
and after making credibility determinations from
the hearing, the Court denied Movant’s Chapter
64 motion.
21. At the November 25, 2014, hearing, the Court
granted the State’s motion to modify Movant’s execution date. The Court entered an amended
execution order setting Movant’s execution for
March 5, 2015.
22. On December 2, 2014, Movant requested a subpoena to obtain a personal reference sample for
purposes of the agreed-to DNA testing ordered on
July 14, 2014. A subpoena issued on December 3,
2014.
Findings of Fact and Conclusions of Law
23. Reed has failed to prove by a preponderance of the
evidence that his Chapter 64 motion is not made
to unreasonably delay the execution of sentence of
administration of justice. This is explained below:
23a. Movant, to date, has not provided the
Court with any information regarding
time estimates for the extensive DNA
testing he seeks. This alone, the Court
believes, is sufficient to show that Movant has failed in his burden to show
that his request is not made to unreasonably delay his execution.
23b. Movant filed his Chapter 64 motion on
the day this Court initially set Movant’s
execution date. This timing, the Court
believes, was not coincidental, but a designed tactic to delay the setting of
Movant’s execution date. Movant’s

123a
repeated desire to indefinitely delay his
execution, instead of proposing concrete
timelines, further supports the Court’s
belief that his Chapter 64 motion was
filed for purposes of unreasonable delay.
23c. The Court notes that Movant’s Chapter
64 motion was filed thirteen years after
Chapter 64’s enactment and approximately three years after Chapter 64’s
most recent amendment. The Court finds
that there was no legal impediment to
filing a Chapter 64 motion during this
entire period. The Court also notes that
Movant has been continuously represented
by
counsel
during
his
postconviction proceedings, as indicated
by the multiple state and federal opinions generated during these proceedings.
The lack of filing during this period,
which was without factual or legal impediment, leads the Court to believe that
the present Chapter 64 motion is filed for
purposes of delay.
23d. As pled in Movant’s Chapter 64 motion,
Movant’s first informal request for DNA
testing occurred three days after the
United States Court of Appeals affirmed
the denial of his federal petition for writ
of habeas corpus. This timing is important because, as demonstrated in the
State’s response, there is little chance for
relief following affirmation of the denial
of a federal habeas petition. Thus, the
Court finds that Movant only sought

124a
DNA testing after his other efforts at relief proved unsuccessful. This diminishes
Movant’s case that his present Chapter
64 motion was not filed for purposes of
unreasonable delay.
23e. As demonstrated by the State’s exhibits,
Movant’s attorney—Bryce Benjet—is
counsel of record for Larry Swearingen,
another Texas death row inmate. Mr.
Benjet filed a Chapter 64 motion for
Swearingen approximately a year and a
half before Movant’s Chapter 64 motion.
Mr. Benjet filed another Chapter 64 motion for Swearingen approximately two
months before Movant’s Chapter 64 motion. Movant’s motion is substantially
similar to Swearingen’s initial Chapter
64 motion and attached to Swearingen’s
initial Chapter 64 motion is a personal
affidavit from Swearingen and an affidavit from a DNA expert. Swearingen’s
second Chapter 64 motion has attached
to it another affidavit from a DNA expert. Thus, the Court concludes that
Movant, through his counsel, Mr. Benjet,
had the legal and factual knowledge to
file Movant’s present Chapter 64 motion
more than a year before it was filed. Movant’s delayed presentation of a personal
affidavit and an expert affidavit, the
Court finds, is a purposeful attempt at
delay.
23f. Movant has been cited for abuse of the
writ on five separate occasions by the

125a
Court of Criminal Appeals. As demonstrated by the State’s evidence, the
United States District Court for the
Western District of Texas ruled that Movant had untimely sought forensic
testing and was dilatory in submitting
an affidavit. The United States Court of
Appeals for the Fifth Circuit also found
that Movant submitted evidence in an
untimely fashion. Accordingly, the Court
finds that Movant has engaged in a dilatory and piecemeal litigation strategy
throughout his postconviction proceedings and the Court believes this Chapter
64 motion is a continuation of such behavior.
23g. Movant has thrice asked the Court to indefinitely postpone his execution date—
once in opposing the State’s motion to set
an execution date, once at the hearing to
set an execution date, and once at the
hearing on this Chapter 64 motion via a
motion to withdraw the date. The Court
finds that Movant’s request for, essentially, indefinite stays works against him
in proving that he is not attempting to
unreasonably delay his execution.
23h. Movant, at the live evidentiary hearing
on the Chapter 64 motion, asked for
DNA testing on a substantial amount of
evidence that he had not mentioned in
his Chapter 64 motion. Consequently,
Movant has not individually briefed or
explained the type of testing that he

126a
would like performed on these items. The
Court finds this dilatory request to be
another example of Movant’s last-minute amendments to his Chapter 64
pleadings, which this Court considers to
be an attempt to unreasonably delay his
execution.
23i. The Court rejects Movant’s rationale for
failing to request and brief those items of
evidence raised for the first time at the
hearing on the Chapter 64 motion; specifically, that Movant did not know of the
evidence’s existence until the State attached inventories to its Chapter 64
response. Movant has failed to demonstrate that he requested such inventories
from the State prior to the State’s Chapter 64 response or that the State refused
him such inventories upon request. Further, one of the items of evidence that
Movant requested to be tested for the
first time at the Chapter 64 hearing—
beer cans—has been heavily litigated
during the course of Movant’s postconviction proceedings. It is inconceivable to
the Court that Movant did not know that
such item existed. Moreover, Movant requested DNA testing of items of evidence
in his Chapter 64 motion—a condom, a
knife, and a shirt piece—that were not
introduced at trial and were, therefore,
“unknown” to Movant until the State attached an inventory to its response.
Stated another way, Movant requested
testing of some items he did not “know”

127a
were in the possession of the State or
District Clerk. The Court finds Movant’s
unsupported excuse to be further evidence of his attempts to unreasonably
delay his execution.
23j. As demonstrated by the State’s evidence,
Movant is in possession of extracts from
multiple pieces of evidence he seeks testing on and which he could test
independently of a Chapter 64 motion.
This includes the beer cans, various
swabs from the victim’s body, stains from
the victim’s pants and back brace, and a
condom. Movant’s request to test these
items via Chapter 64 when he could conduct the testing himself, especially given
his offer to pay for DNA testing, leads the
Court to believe that his request for DNA
testing is for the purpose of unreasonable delay.
23k. The Court finds that Movant has requested DNA testing of items of evidence
that the State has already agreed to test.
This includes various hairs and swabs
from the victim’s body. The Court finds
that this request for redundant testing
is, again, an attempt to unreasonably delay the execution of sentence.
23l. Movant has repeatedly stated, in pleadings and in court, that he plans to soon
file postconviction motions for relief pursuant to Articles 11.071 and 11.073 of
the Texas Code of Criminal Procedure.
To date, despite Movant’s promise of

128a
diligence, he has not filed either pleading. The Court views this procrastination
as another example of an attempt to unreasonably delay his execution.
23m. Movant waited more than four months to
obtain a subpoena for a reference sample
from himself for purposes of the agreedto DNA testing that this Court ordered
in July. This delay in requesting a reference sample demonstrates, the Court
believes, unreasonable delay and Movant’s tardy actions in his agreed-to
DNA testing makes this Court believe he
could not complete his requested DNA
testing before the present execution
date.
24. The Court finds that Movant has failed to prove
by a preponderance of the evidence that he would
not have been convicted but for exculpatory results from DNA testing. This is explained below:
24a. The State’s case on guilt-innocence was
strong—Movant’s DNA was found both
on and inside the victim, which demonstrated presence; the intactness of
Movant’s sperm inside the victim’s vaginal cavity, the peri-mortem injuries to
the victim’s anus, Movant’s saliva on the
victim’s breasts after she took a shower
the evening before her murder, and the
small amount of semen in the victim’s
panties demonstrated sexual assault
contemporaneous with murder; the perimortem injury to the victim’s anus and
the obvious signs of sexual assault—the

129a
victim’s bunched up panties, a broken
pants zipper, partially unclothed,
bruises to the arms, torso, and head of
the victim—demonstrated lack of consent; and additional evidence indicated
that Movant frequented the area of the
victim’s disappearance at the time the
victim disappeared and the Movant
matched the height of someone who
would have fit the adjusted seat in the
victim’s truck.
24b. Many of the items of evidence Movant
seeks to test were already before the jury
and the jury knew they did not match
Movant—their exculpatory nature was
already before the jury. For example,
Movant’s DNA and forensics expert testified that one of the hairs Movant seeks
to test did not match Movant’s genetic
profile. As another example, a DPS forensic scientist testified that none of the
hairs collected from the victim’s body microscopically matched Movant’s hair.
And, as another example, Movant did not
match any of the fingerprints collected
during the course of the investigation.
Thus, the jury knew that many of the
items Movant seeks to test were not from
him.
24c. Further, the Court finds that none of the
evidence Movant seeks to test was so integral to the State’s case that the jury
would have acquitted despite knowing
that Movant’s DNA was not on the item.

130a
Many of items were in a truck shared
with the victim’s fiance and evidence at
trial demonstrated that other people had
ridden in the truck. Thus, the jury would
not be surprised to know that foreign
DNA was found on items originating
from the truck. Further, many of the
items of evidence have been handled by
ungloved individuals, which further undermines the value of such “exculpatory”
results before a jury. Ultimately, at best,
exculpatory results from the items Movant seeks to test would muddy the
waters, not prove by a preponderance
that he would have been acquitted.
Accordingly, Movant’s Chapter 64 motion is DENIED.
It is so ORDERED.

131a
APPENDIX H
[Appendix H reproduces only that portion of a transcript necessary to reflect the November 25, 2014, oral
ruling of the District Court of Bastrop County, Texas]
REPORTER’S RECORD
VOLUME 4 OF 10 VOLUMES
TRIAL COURT CAUSE NO. 8701
STATE OF TEXAS
v.
RODNEY REED

§
§
§
§
§

IN THE 21ST DISTRICT
COURT
OF
BASTROP COUNTY,
TEXAS

____________
MOTION FOR POST-CONVICTION DNA TESTING
HEARING
____________
On the 25th day of November, 2014, the following
proceedings came on to be held in the above-titled and
numbered cause before the Honorable Doug Shaver,
Judge Presiding, held in Bastrop, Bastrop County,
Texas.
Proceedings reported by computerized stenotype
machine.
APPEARANCES
FOR THE RESPONDENT:

132a
Mr. Matthew D. Ottoway
SBOT NO. 24047707
Assistant Attorney General
Criminal Appeals Division
PO Box 12548
Austin, TX 78711-2548
Telephone: (512)936-1400
Fax: (512)320-8132
Email: matthew.ottoway@texasattorneygeneral.gov
FOR THE RESPONDENT:
Mr. Travis G. Bragg
SBOT NO. 24076286
Assistant Attorney General
Criminal Appeals Division
PO Box 12548
Austin, TX 78711-2548
Telephone: (512)936-1400
Fax: (512)320-8132
Email: travis.bragg@texasattorneygeneral.gov
FOR THE RESPONDENT:
Mr. Bryan C. Goertz
SBOT NO. 00784138
Bastrop County District Attorney
804 Pecan St.
Bastrop, TX 78602
Telephone: (512)581-7125
Fax: (512)581-7133
FOR THE DEFENDANT:
Mr. Bryce Benjet
SBOT NO. 2006829
Innocence Project
40 Worth Street, Suite 701
New York, NY 10013

133a
Telephone: (212)364-5979
Fax: (212)364-5341
Email: HWatanabe@innocenceproject.org
FOR THE DEFENDANT:
Mr. Andrew MacRae
SBOT NO. 00784510
Levatino Pace, LLP
1101 S. Capital of Texas Hwy.
Building K, Suite 125
Austin, TX 78746
Telephone: (512)637-1581
Fax: (512)637-1583
Email: andrew@lpfirm.com
[Transcript excerpted to reflect only the trial
court’s ruling, as set out below.]
THE COURT: All right. After reviewing all the
documents that were presented, those in court today,
and all the evidence and arguments of counsel, the
Court finds that this motion was filed untimely and
calls for unreasonable delay, that there’s no reasonable probability the defendant would not have been
convicted had the results been available at the trial of
the case. Your motion is denied.
The motion to modify the execution date is
granted. That new execution date is set for March 5th,
2015, and your motion to withdraw the execution date
has been denied. All right. That completes our hearing. We’re now adjourned.
(Proceedings adjourned.)

134a

THE STATE OF TEXAS

)

COUNTY OF BASTROP

)

I, Margaret Raiford, Substitute Reporter in and
for the 21st District Court of Bastrop County, State of
Texas, do hereby certify that the above and foregoing
contains a true and correct transcription of all portions of evidence and other proceedings requested by
counsel to be included in this volume of the Reporter’s
Record, in the above-entitled and numbered cause, all
of which occurred in open court or in chambers and
were reported by me.
I further certify that this Reporter’s Record of the
proceedings truly and correctly reflects the exhibits, if
any, admitted by the respective parties.
I further certify that the total cost of the preparation of this Reporter’s Record is $100.00 and will be
paid by Mr. Matthew Ottoway.
WITNESS MY OFFICIAL HAND on this the 29th
day of December, 2014.

/s/ Margaret Raiford
Margaret Raiford, CSR 9192
Expiration Date; 12/31/16
Certified Shorthand Reporter
327 N. Knox
Giddings, TX 78942
(979) 716-7122

135a

APPENDIX I
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711

10/4/2017
REED, RODNEY

Tr. Ct. No. 8701

AP-77,054

On this day, the Appellant’s motion for rehearing has
been denied.
Deana Williamson, Clerk
DISTRICT CLERK BASTROP COUNTY
SARAH LOUCKS
P.O. BOX 770
BASTROP, TX 78602
* DELIVERED VIA E-MAIL *

